<html>
<title> - THE STATE OF DEMOCRACY AROUND THE WORLD</title>
<body><pre>[Senate Hearing 117-5]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 117-5

                        THE STATE OF DEMOCRACY 
                            AROUND THE WORLD

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             MARCH 10, 2021

                               __________


       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       

                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-045 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
 
                 COMMITTEE ON FOREIGN RELATIONS        

             ROBERT MENENDEZ, New Jersey, Chairman        
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
CHRISTOPHER MURPHY, Connecticut      MITT ROMNEY, Utah
TIM KAINE, Virginia                  ROB PORTMAN, Ohio
EDWARD J. MARKEY, Massachusetts      RAND PAUL, Kentucky
JEFF MERKLEY, Oregon                 TODD YOUNG, Indiana
CORY A. BOOKER, New Jersey           JOHN BARRASSO, Wyoming
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
CHRIS VAN HOLLEN, Maryland           MIKE ROUNDS, South Dakota
                                     BILL HAGERTY, Tennessee
                 Jessica Lewis, Staff Director        
        Christopher M. Socha, Republican Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  
                           C O N T E N T S

                              ----------                              
                                                                   Page

Menendez, Hon. Bob, U.S. Senator From New Jersey.................     1
    Prepared Statement...........................................     3

Risch, Hon. James, U.S. Senator From Idaho.......................     5
    Prepared Statement...........................................     7

Albright, Hon. Madeleine, Former Secretary of State, Washington, 
  DC.............................................................     8
    Prepared Statement...........................................    10

Dobriansky, Ambassador Paula J., Former Under Secretary of State 
  for Global Affairs, Washington, DC.............................    12
    Prepared Statement...........................................    14

Ajak, Peter Biar, Ph.D., Reagan-Fascell Democracy Fellow, 
  National Endowment for Democracy, Washington, DC...............    33
    Prepared Statement...........................................    35

Pwint Thon, Wai Hnin, Campaigns Officer, Burma Campaign, UK......    39
    Prepared Statement...........................................    40

Law, Nathan, Pro-Democracy Activist and Former Hong Kong 
  Legislative Council Member.....................................    44
    Prepared Statement...........................................    46

                                 (iii)

  

 
                       THE STATE OF DEMOCRACY 
                            AROUND THE WORLD

                              ----------                              


                      WEDNESDAY, MARCH 10, 2021

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Bob Menendez, 
chairman of the committee, presiding.
    Present: Senators Menendez [presiding], Cardin, Coons, 
Kaine, Markey, Booker, Schatz, Van Hollen, Risch, Johnson, 
Romney, Portman, Paul, Young, Rounds, and Hagerty.

            OPENING STATEMENT OF HON. BOB MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. Good morning, everyone. This hearing of the 
Senate Foreign Relations Committee will come to order.
    Thanks, everyone, for coming, and especially to our 
witnesses who we will hear from shortly.
    For the purposes of this specific hearing, we are going to 
pursue--as we get our technology under control in terms of 
understanding when people sign in, we are going to do it by 
seniority, but we will ultimately try to work towards whoever 
appears at the time of the gavel, but we are not there yet. So 
with my apologies for those who made it early, hopefully you 
will still be in the rotation and others will not jump in front 
of you. But for today, as we figure out how, when we have a 
hybrid, how we can make sure that we understand where the 
seniority is--I mean, where the in-time appearance is, we are 
going to do this for today's purposes by seniority.
    Given the state of the world and our own country, I felt it 
was paramount to use my first policy hearing as chairman this 
Congress to examine democracy as a fundamental American value 
and how it drives our foreign policy. In every region of the 
world today, authoritarian governments are seizing more and 
more power, dismantling core democratic institutions, and 
closing in on civil society and freedom of expression. Many 
emerging democracies are plagued by scandal, corruption, and 
citizen disaffection. From Turkey and Hungary, to Venezuela, to 
the Philippines, autocrats are systematically dismantling 
constitutional checks on their power. Unfortunately, the COVID-
19 pandemic has helped accelerate some of their actions by 
providing an excuse to consolidate power and quash free press.
    Of course we cannot seriously talk about democratic decline 
around the world without confronting the stress tests on our 
own democracy. The assault on the U.S. Capitol on January 6th 
was the culmination of coordinated misinformation fueled by a 
systemic undermining from the very highest office in the land 
of the foundational elements of our democracy, including the 
right to vote, a free press, and our institutions themselves, 
tragically, the same pattern we are seeing in democratic free-
falling countries.
    But I would offer that our strength as Americans is our 
commitment to strive for that more perfect union. We take 
seriously our responsibility to continually ensure that our 
citizens are equipped with the knowledge of their rights and 
responsibilities in a democratic society so that they can hold 
their leaders accountable. We ensure people have the right to 
vote and that our judiciary remains independent, and a course 
correction when we must. History has proven that democracies 
are more peaceful when their people are more prosperous and 
more secure, and it is in our national interest to champion 
these values.
    So with that in mind, as leaders around the world that 
publicly and privately question whether the United States can 
still talk about democratic promotion, I say we must. It is 
simply in our interest. And I remind those who I have talked to 
around the world who have challenged that proposition that the 
reality is that our institutions withstood the challenges that 
were presented to it, from its judiciary, to the Congress, to a 
free press and its vibrancy. All of these elements may have 
been tested, but they withstood the test.
    Our driving question of today's hearing is why the United 
States must support democracy around the world as a fundamental 
American value and the most effective tools we have to support 
democratic resilience and expansion. Last year, I published a 
report documenting the steep cost that the Trump presidency 
exacted on U.S. foreign policy and national security. 
Interviews with current and former U.S. officials, foreign 
officials, national security experts, all affirmed that 
President Trump's actions made it harder to effectively 
champion human rights and promote democracy abroad, and we 
largely ceded the moral ground on the global stage at a time 
when we needed it most to counter the authoritarian forces of 
Russia and China.
    Today, Beijing and Moscow are driving global authoritarian 
expansion to increasingly-sophisticated digital authoritarian 
surveillance and control tools and simple old-fashioned arrest 
of peaceful protesters in the shutting down of independent 
media. The United States must counter their malign efforts with 
a worldwide campaign to promote democratic values. We must also 
lead a serious attack on the lifeblood of these autocrats, the 
kleptocratic ways in which they loot public coffers to sustain 
themselves and erode freedom globally. We must maintain 
consistent and continuous pressure on authoritarian governments 
to stop them from abusing the rights of their citizens and 
exporting disinformation and other tools of repression abroad.
    Tragically, we can look around the world and see countries 
that may have once had so much promise overtaken by military or 
self-interested autocrats. The recent coup in Burma represents 
a direct and pressing challenge to our aim of restoring values 
to the center of our foreign policy. Across the Middle East, we 
must not be silent in the face of human rights violations for 
fear of offending a security partner. Our partnerships are not 
blank checks. We are seeing the Egyptian Government not only 
targeting democracy and human rights activists in Egypt, but 
also targeting the family members of U.S. citizens who 
criticize their policies. In Saudi Arabia, I will continue to 
press for accountability for the murder of Jamal Khashoggi.
    In Ethiopia, the path to credible elections in June has 
closed considerably. The ongoing conflict in Tigre with 
credible reports of mass atrocities and violence in other 
regions means millions of Ethiopian voters will be 
disenfranchised, absent dramatic change. And to the East in 
Sudan, the civil--the civilian-led transitional Government is 
facing serious economic and political headwinds.
    Let me end closer to our own borders. As we prepare to 
celebrate the 20th anniversary of the Inter-American Democratic 
Charter in September, we have seen in the region a series of 
deeply flawed or fraudulent elections. Entrenched 
authoritarians have clung to power in Havana, Caracas, and 
Managua. After 6 days--excuse me, I wish it was 6 days--six 
decades, Cuba remains firmly in the grasp of a dictatorship, 
and nowhere in our hemisphere has democratic deterioration 
produced greater human suffering than in Venezuela. Maduro's 
brutal criminal regime has unleashed a humanitarian crisis and 
has perpetrated crimes against humanity in order to silence 
dissent.
    We have an opportunity now to reassert the U.S. role in 
championing democracy and human rights around the globe. We do 
this because it is right and because it is in our interests. 
Our investments in democracy are our best hope for bolstering 
the stability and prosperity of our neighbors in far-off 
countries alike, and for keeping our sons and daughters out of 
war. To continue to champion democracy and human rights in 
foreign policy, we need to have a fuller sense of the 
challenges we face and how the United States can best rise to 
face them, and shortly we will turn to our witnesses to get 
their perspectives.
    With that, I would like to turn to the distinguished 
ranking member for his comments.
    [The prepared statement of Chairman Menendez follows:]

                Prepared Statement of Chairman Menendez

                         introduction/overview
    Thank you everyone for coming today and thank you especially to our 
witnesses. For my first hearing as Chairman this Congress, I feel it's 
critical that we examine democracy as a fundamental American value, and 
how it drives our foreign policy. In every region of the world today 
authoritarian governments are seizing more and more power, dismantling 
core democratic institutions, and closing in on civil society and 
freedom of expression. Emerging democracies are plagued by scandal, 
corruption, and citizen disaffection. From Turkey and Hungary to 
Venezuela to the Philippines, autocrats are systematically dismantling 
constitutional checks on their power. Unfortunately, the COVID-19 
pandemic has helped accelerate some of their actions.
    Of course, we cannot talk about democratic decline around the world 
without confronting the stress tests on our democracy. The assault on 
the U.S. Capitol on January 6 was the culmination of coordinated 
misinformation . . . fueled by a systematic undermining--from the very 
highest office in this land--of the very foundational elements of 
democracy in this country including the right to vote, a free press, 
and our institutions themselves.
    Our responsibility is to continually ensure that our citizens are 
equipped with the knowledge of their rights and responsibilities in a 
democratic society so that they can their leaders accountable. And 
course correct when we must. History has proven that democracies around 
the world are still more peaceful, their populations more prosperous 
and more secure, and it is in our interest to still champion our 
values.
    So the focus of today's hearing is why the United States must 
support democracy around the world as a fundamental American value and 
the most effective tools we have to support democratic resilience and 
expansion.
    Last year, I published a report documenting the steep costs the 
Trump presidency exacted on U.S. foreign policy and national security. 
Interviews with current and former U.S. officials, foreign officials, 
and national security experts affirmed that President Trump's actions 
made it harder to effectively champion human rights and promote 
democracy abroad. In doing so, we largely ceded the moral high ground 
at a time on the global when we needed it most to counter the 
authoritarian forces of Russia and China.
    Today, Beijing and Moscow are driving global authoritarian 
expansion in an attempt to make the world a safer place for their 
repressive forms of government . . . through increasingly sophisticated 
digital authoritarian surveillance and control tools and simple old 
fashioned arresting of peaceful protestors and shutting down 
independent media. The United States must counter their malign efforts 
with a worldwide campaign to promote democratic values. We must also 
lead a serious attack on the lifeblood of these autocrats--the 
kleptocratic ways in which they loot public coffers to sustain 
themselves and erode freedom globally. We also must maintain consistent 
and continuous pressure on authoritarian governments.
                            around the world
    Tragically, we can look around the world and see countries that may 
have once had so much promise . . . overtaken by military or self-
interested autocrats. Unfortunately, this list is not exhaustive.
    The coup in Burma represents a direct and pressing challenge to our 
aim of restoring values to the center of our foreign policy.
    Our failure to ensure real accountability and costs for the bad 
behavior of Burma's military over the past decade in part got us here 
including removing sanctions and failing to call out a genocide in 
Rakhine State. But it is not too late to impose accountability.
    Across the Middle East, we must not be silent in the face of human 
rights violations for fear of offending a security partner. Our 
partnerships are not blank checks. In Egypt, we are seeing the 
Government not only targeting democracy and human rights activists in 
Egypt, but also targeting the family members of U.S. citizens who 
criticize their policies. And I will continue to press for 
accountability for the murder of Jamal Khashoggi.
    In Ethiopia, the path to credible elections in June has closed 
considerably. The ongoing conflict in Tigray, with credible reports of 
mass atrocities, and violence in other regions mean millions of 
Ethiopian voters will be disenfranchised, absent dramatic change. And, 
to the east, in Sudan, the civilian-led transitional Government is 
facing serious economic and political headwinds. Recent elections in 
Uganda and Tanzania were marred by repression and fraud.
                      venezuela/western hemisphere
    Let me end closer to our own borders . . .. As we prepare to 
celebrate the 20th anniversary of the Inter-American Democratic Charter 
in September, we have seen in the region a series of deeply flawed or 
fraudulent elections.
    Entrenched authoritarians have clung to power in Havana, Caracas, 
and Managua. After six decades, Cuba remains firmly in the grasp of a 
dictatorship.
    And nowhere in our hemisphere has democratic deterioration produced 
greater human suffering than in Venezuela. Maduro's brutal criminal 
regime has unleashed a humanitarian crisis and has perpetrated crimes 
against humanity in order to silence dissent.
                                closing
    We are at a pivotal moment . . . we have an opportunity to reassert 
the U.S. role in championing democracy and human rights around the 
globe. We do this because it is right, and we do it because it is in 
our interest. Our investments into democracy are our best hope for 
bolstering the stability and prosperity of our neighbors and far off 
countries alike, and keeping our sons and daughters out of war. To 
continue to champion democracy and human rights in foreign policy, we 
need to have a fuller sense of the challenges we face and of how the 
United States can best rise to face them. For that, we shall turn to 
our witnesses.
                       introduction of witnesses
Albright
    It is my honor to welcome Secretary Madeleine Albright. Secretary 
Albright served as our first female Secretary of State, working as the 
nation's top diplomat from 1997 to 2001. Prior to that, she served as 
U.S. Ambassador to the United Nations. Born in Prague, Secretary 
Albright and her family fled the Nazis and eventually settled in the 
United States. We are fortunate to be hearing from Secretary Albright, 
given her decades of public service at the highest levels of our 
Government and her deep personal experience with the democratic 
struggle. Welcome, Madame Secretary.
Dobriansky
    We are also joined by another formidable diplomat, Ambassador Paula 
Dobrianksy. Ambassador Dobriansky served as Under Secretary of State 
for Global Affairs from 2001 to 2009 and as the President's Envoy to 
Northern Ireland in 2007. Welcome, Ambassador.
Ajak
    I would like to welcome Dr. Peter Biar Ajak. Dr. Ajak is a civil 
society leader, political dissident, and scholar from South Sudan. He 
is the founder of the Juba-based Center for Strategic Analyses and 
Research, and chair of the South Sudan Young Leaders Forum. An 
outspoken advocate for free and fair elections, Dr. Ajak was convicted 
of disturbing the peace and jailed for 18 months in South Sudan's 
notorious Blue House prison. Facing death threats upon his release, he 
was forced to seek safe haven in the United States, where he continues 
to advocate for democracy back home. Welcome, Dr. Ajak.
Law
    I would next like to introduce Mr. Nathan Law. He is a co-founder 
of the Network of Young Democratic Asians, aiming at promoting 
exchanges among social activists in Japan, Taiwan, Burma, Thailand, and 
other East Asian countries. At 23, Mr. Law was elected to Hong Kong's 
Legislative Council in 2017 and became the youngest Legislative 
Councilor in history. Yet his election was overturned in July 2017 
following Beijing's constitutional reinterpretation. After the 
imposition of the Hong Kong National Security Law in mid-2020, Nathan 
fled Hong Kong, but he continues to be a strong advocate for democracy 
there. Welcome, Mr. Law.
Pwint Thon
    Finally, welcome to Ms. Wai Hnin Pwint Thon (WAY-NIN PINT THAWN). 
She is a Burmese human rights defender working with the non-
governmental organizations Burma Campaign UK and Advance Myanmar. Wai 
Hnin (WAY NIN)'s advocacy is inspired by her father, who is one of the 
country's leading Muslim human rights activists. He has been detained 
by the Burmese military since the military coup on February 1st. 
Welcome, Ms. Pwint Thon.

                STATEMENT OF HON. JAMES RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Well, thank you very much. I concur that it 
is appropriate that the first policy hearing we have in this 
Congress is on the state of democracy around the world because, 
after all, when it comes to foreign relations or the success 
and operation of a country, democracy is foundational to that, 
and the United States remains the gold standard for democracy. 
Yes, we do wind up having disagreements and a little pushing 
and shoving as to how we execute democracy, but we have in 
place an independent judiciary that resolves those disputes, 
and we then accept those and move on and execute the democracy 
that the founding fathers gave us.
    And while we have been rightly focused on combating the 
coronavirus pandemic, another worldwide threat is taking shape, 
and that is a decline in democracies and democratic principles, 
many of which that you have referred to, Mr. Chairman, in your 
opening remarks, and I concur in those. Before COVID-19 broke 
out in Wuhan, China, democratic backsliding had already become 
a serious global concern. The ongoing pandemic has given 
opportunistic leaders another excuse to grab power and suppress 
their own citizens' fundamental freedoms and human rights.
    It is happening even in countries who had once struggled to 
actually reach a level of democracy, and I do not think we have 
to look very far. Right in our own neighborhood, Venezuela went 
from a country that was, as much as anything, a democracy into 
what it is today, which is anything but. And one of the 
disheartening things is how quickly something like that can 
happen in very short order with just one or two leaders who are 
not committed to the rule of law and democracy.
    Rather than keep its promise, the Chinese Communist Party 
is doing everything it can to erase Hong Kong's autonomy. One 
of the largest threats to rights and freedoms is Beijing's so-
called National Security Law, which has been used to arrest and 
instill fear among teachers, journalists, and activists in Hong 
Kong. While COVID-19 infected the world, the restrictions used 
to fight the virus are also used to fight democracy, including 
by limiting protests, delaying elections, and implementing a 
press of state-sponsored censorship. Just this week, 47 Hong 
Kong democracy activists were charged under the new National 
Security Law.
    In Africa, countries, like The Gambia, Sudan, and Ethiopia, 
have seen important moments of democratic progress in recent 
years. However, the pandemic and the political, economic, and 
security realities have put these democratic transitions under 
tremendous strain and jeopardize their progress. At the same 
time, we have seen countries, like Tanzania, Uganda, and 
Zimbabwe, further backslide in the face of increasingly 
authoritarian and corrupt behavior by their leaders. Despite 
these challenges, democracy remains in high demand amongst most 
Africans.
    After enjoying some democratic progress since 2011, Burma's 
recent military coup has set the country back, dramatically 
back. Courageous citizens protesting this authoritarian regime 
have been met with violence, leading to scores of death and 
injuries of innocent protesters. Hundreds have been arrested, 
including the father of one of our witnesses today. The 
military, in an effort to quash all dissent and momentum for 
protests, also weaponized access to the internet to avoid and 
block communication between those who want to communicate in 
protest fashion. While news of democratic backsliding around 
the globe can be disheartening, it is a reminder that we must 
fight for and defend democracy and democratic values. The 
United States needs to continue to lead the world in supporting 
democracy and rule of law.
    The United States has robust programs to promote democracy, 
the rule of law, and respect for human rights across the globe. 
We support civil societies, organizations, and election 
preparation, and improving media literacy, and increasing 
women's participation in the political process. This work 
continues despite significant obstacles. Authoritarian 
governments in places, such as Russia and China, continue to 
enforce draconian anti-NGO laws, which limit our ability to 
support civil society. Even as we remain focused on our 
domestic response to the COVID-19 pandemic, we must not turn a 
blind eye to democratic backsliding across the globe.
    I look forward to hearing from the witnesses today on how 
the United States can continue to lead on promoting democracy 
and supporting civil society actors around the world. Thank you 
very much.
    [The prepared statement of Senator Risch follows:]

                  Prepared Statement of Senator Risch

    Thank you very much. I concur that it is appropriate that the first 
policy hearing we have this Congress is on the state of democracy 
around the world. Because after all, when it comes to foreign relations 
or the success and operation of a country, democracy is foundational to 
that.
    The United States remains the gold standard for democracy. Yes, we 
do wind up having disagreements and a little pushing and shoving as to 
how we execute democracy. But we have in place an independent judiciary 
to resolve those disputes. We then accept those and move on and execute 
the democracy that the founding fathers gave us.
    While we have been rightly focused on combatting the Coronavirus 
pandemic, another worldwide threat is taking shape: that is the decline 
of democracies and democratic principles, many of which you have 
referred to, Mr. Chairman, in your opening remarks. I concur on those.
    Before COVID-19 broke out in Wuhan, China, democratic backsliding 
had already become a serious global concern. The ongoing pandemic has 
given opportunistic leaders another excuse to grab power and suppress 
their own citizens' fundamental freedoms and human rights. It's 
happening even in countries who had once struggled to actually reach a 
level of democracy.
    I don't think we have to look very far. Right in our own 
neighborhood, Venezuela went from a country that was as much as 
anything a democracy into what it is today which is anything but. One 
of the disheartening things is how quickly something like that can 
happen in very short order, with just one or two leaders who are not 
committed to rule of law and democracy.
    Rather than keep its promise, the Chinese Communist Party is doing 
everything it can to erase Hong Kong's autonomy. One of the largest 
threats to rights and freedoms is Beijing's so-called ``national 
security law,'' which has been used to arrest and instill fear among 
teachers, journalists, and activists in Hong Kong.
    While COVID-19 infected the world, the restrictions used to fight 
the virus were also used to fight democracy, including by limiting 
protests, delaying elections, and implementing oppressive state-
sponsored censorship. Just this week, 47 Hong Kong democracy activists 
were charged under the new national security law.
    In Africa, countries like The Gambia, Sudan, and Ethiopia have seen 
important moments of democratic progress in recent years. However, the 
pandemic and the political, economic, and security realities have put 
these democratic transitions under tremendous strain and jeopardized 
their progress.
    At the same time, we've seen countries like Tanzania, Uganda, and 
Zimbabwe further backslide in the face of increasingly authoritarian 
and corrupt behavior by their leaders. Despite these challenges, 
democracy remains in high demand among most Africans.
    After enjoying some democratic progress since 2011, Burma's recent 
military coup has set the country back, dramatically back. Courageous 
citizens protesting this authoritarian regime have been met with 
violence, leading to scores of deaths and injuries of innocent 
protestors. Hundreds have been arrested including the father of one of 
our witnesses today. The military, in an effort to squash all dissent 
and momentum for protests, also weaponized access to the internet to 
avoid and block communication between those who want to communicate in 
protest fashion.
    While news of democratic backsliding around the globe can be 
disheartening, it is a reminder that we must fight for and defend 
democracy and democratic values. The United States needs to continue to 
lead the world in supporting democracy and the rule of law.
    The United States has robust programs to promote democracy, the 
rule of a law, and respect for human rights across the globe. We 
support civil society organizations in election preparation, in 
improving media literacy, and in increasing women's participation in 
the political process. This work continues despite significant 
obstacles. Authoritarian governments in places such as Russia and China 
continue to enforce draconian anti-NGO laws, which limit our ability to 
support civil society.
    Even as we remain focused on our domestic response to the COVID-19 
pandemic, we must not turn a blind eye to democratic back-sliding 
across the globe. I look forward to hearing from the witnesses today on 
how the United States can continue to lead on promoting democracy and 
supporting civil society actors around the world.

    The Chairman. Thank you. Let us turn to our first panel. It 
is my honor to welcome Secretary Madeleine Albright virtually. 
Secretary Albright served as our first female Secretary of 
State, working as the Nation's top diplomat from 1997 to 2001. 
Prior to that, she served as U.S. Ambassador to the United 
Nations. Born in Prague, Secretary Albright and her family fled 
the Nazis and eventually settled in the United States. She is 
one of the most significant voices in the promotion of 
democracy in our country. We are fortunate to be hearing from 
Secretary Albright given her decades of public service at the 
highest levels of our Government and her deep personal 
experience with the democratic struggle as well.
    We are also joined by another formidable diplomat, 
Ambassador Paula Dobriansky. Ambassador Dobriansky served as 
undersecretary of state for global affairs from 2001 to 2009 
and as the President's envoy to Northern Ireland in 2007. 
Welcome, Ambassador.
    With that, we will turn to Secretary Albright first, and 
then we will go to Ambassador Dobriansky.

   STATEMENT OF HON. MADELEINE ALBRIGHT, FORMER SECRETARY OF 
                     STATE, WASHINGTON, DC

    Secretary Albright. Chair Menendez and Ranking Member 
Risch, thank you so much, and members of the committee. I am 
really delighted that you asked me to share my thoughts on the 
state of democracy, and I so applaud the fact that you are 
making this your first hearing. As you mentioned, Chairman 
Menendez, it is a topic that I approach through the prism of my 
own experience, having come to this country in 1948 after my 
family fled both communism and fascism in Europe. And I have 
always been a grateful American, and I was taught by my father 
to appreciate both the fragility of democracy and its 
resilience.
    In the past quarter century, I have testified before this 
committee on many occasions, and I have not always agreed with 
every senator on every topic, but I do not ever recall having 
had a quarrel about the importance of democracy. So today, in 
the interest of time, I will devote my remarks less to the 
widely-reported symptoms of freedoms' decline than to the 
question of what we can and should do about it. And so to that 
end, I will stress three points.
    First, the United States must lead. Many countries can and 
do help, but no other nation has both the historic 
identification with liberty and the geographic reach to inspire 
and strengthen democratic institutions in every region. If 
America is not out front, others will take our place, either 
despots, who rule with an iron fist, or extremists, who 
acknowledge no rules at all, and this would leave the world 
with a choice between repression and chaos, and we owe our 
children a better alternative than that.
    My second point follows directly from the first: America 
must set the right example. People across the globe will not 
follow us if they do not believe us, and they will not believe 
us if we fail to match our words with actions. I will not dwell 
on the events of January 6th, but you can be sure that our 
rivals will not soon let the world forget the spectacle of 
American democracy under siege from within. And just recently 
in Burma, the military launched a coup because its leaders 
refused to accept the results of a democratic election. Sound 
familiar?
    The truth is that we have to be able to understand what is 
going on in every single way, and the truth is that the 
autocrats in many countries have echoed the words of our past 
President when attacking their legitimate opposition, their 
courts, the independent press, and natural--national 
legislatures. Meanwhile, here at home, efforts are under way in 
many States to chip away at the right to vote, the very 
cornerstone of freedom. And to be clear, just as it is 
fraudulent for people to vote illegally, so it is fraudulent to 
deny citizens the best possible chance to cast their ballots 
within the law. And when it comes to holding fair elections, 
there is no comparison: denial of the franchise, not deception 
at the polls, is by far the bigger problem.
    And I do think, as I make my third point, is that building 
and sustaining democracy should be a first principle, not an 
afterthought, in U.S. foreign and national security policy, and 
the reason should be clear to all of us. And let us look around 
the world, and some of--both of you, Mr. Chairman and Ranking 
Member, have looked at some of this. From South Asia to Central 
Europe, and from the Middle East to parts of Africa and Latin 
America, democracy is steadily losing ground. Not since the 
Cold War have we seen a broader or more ominous threat to human 
freedom. So what should we do, fall apart and retreat or come 
together in defense of our core beliefs?
    When I was Secretary of State, I helped launch what we 
called the Community of Democracies, an effort that continued 
under the leadership of Ambassador Dobriansky in the Bush 
administration, and I am delighted to be able to testify along 
with her. We were committed to the idea that democratic 
governments should assist each other in creating jobs, 
improving services, and countering threats. The time is right 
to revive that sense of solidarity. For America, that means 
helping to strengthen liberty's cause through the employment of 
every available foreign policy tool, including aid, trade, 
sanctions, bilateral and multilateral diplomacy, and 
partnerships with advocacy groups and the private sector. We 
must also apply the lessons we have already learned about the 
need for patience, inclusivity, a holistic approach to how we 
go forward. And I think that that is a very important aspect in 
terms of looking at what lessons we have learned and that they 
have to be tailored to the individual circumstances of the 
countries involved.
    The bipartisan National Endowment for Democracy and its 
four core institutes--NDI, IRI, CIPE, and the Solidarity 
Center--are rich sources of wisdom on all of these points, and 
it has been my honor to be associated with these institutions 
since they were founded by President Reagan, and to have served 
as chairman of NDI since 2001. And I know they stand ready to 
work with this committee as it reviews and strengthens 
democracy programs.
    Now, some will tell you that a democracy-centered foreign 
policy reflects a kind of starry-eyed idealism, and that the 
only way to protect our interests is through hard-headed 
realism. And is there some truth in that? Yes, I will not deny 
it. But in the vast majority of cases, support for democracy 
serves both our interests and our ideals. History has shown us 
that free countries make better neighbors, more reliable 
friends, and the only allies we can count on consistently. And 
that is why backing democratic values must be the centerpiece 
of any strategy to create a more secure, stable, healthy, and 
prosperous global environment, a kind of setting in which 
Americans can thrive.
    A little more than a century ago, a U.S. President asked 
our armed forces to cross the ocean to make the world safe for 
democracy. Today, we must support democracy to make the world 
safe, and we should do so with confidence. Despite recent 
setbacks, we know that democracy is resilient, and so, too, is 
the United States. Our economy is one of the strongest and most 
innovative in the world because we have a system of government 
that supports the rule of law and protects the rights of 
individuals. We know as well that, even now, no words speak 
more powerfully to the aspirations of all people than that 
singular pledge of liberty and justice for all.
    As President Biden wrote in the Interim National Security 
Strategic Guidance issued last week, and I quote, ``We must 
prove that our model is not a relic of history. It is the 
single-best way to realize the promise of the future.'' And, 
Mr. Chairman and members of the committee, there is much more I 
could say, but time is precious, and so I really look forward 
to any of the questions you might have. Thank you so much for 
asking me to participate in this important hearing.
    [The prepared statement of Secretary Albright follows:]

                Prepared Statement of Secretary Albright

    Chairman Menendez, Ranking Member Risch, and members of the 
committee.
    Thank you for inviting me to share my thoughts on the state of 
democracy around the world. It is a topic I approach through the prism 
of my own experience, having come to this country in 1948 after my 
family fled both communism and fascism in Europe. I am a grateful 
American, and I was taught by my father to appreciate both the 
fragility of democracy and its resilience.
    In the past quarter century, I have testified before this committee 
on many occasions. I have not always agreed with every Senator on every 
topic, but I do not recall ever having had a quarrel about the 
importance of democracy.
    So today, in the interests of time, I will devote my remarks less 
to the widely reported symptoms of freedom's decline than to the 
question of what we can and should do about it.
    To that end, I will stress three points.
    First, the United States must lead. Many countries can and do help, 
but no other nation has both the historic identification with liberty 
and the geographic reach to inspire and strengthen democratic 
institutions in every region.
    If America is not out front, others will take our place: either 
despots who rule with an iron fist or extremists who acknowledge no 
rules at all.
    This would leave the world with a choice between repression and 
chaos; we owe our children a better alternative than that.
    My second point follows directly from the first. America must set 
the right example.
    People across the globe won't follow us if they don't believe us, 
and they won't believe us if we fail to match our words with actions.
    I won't dwell on the events of January 6, but you can be sure that 
our rivals will not soon let the world forget the spectacle of American 
democracy under siege from within.
    Just recently in Myanmar, the military launched a coup because its 
leaders refused to accept the results of a democratic election. Sound 
familiar?
    The truth is that autocrats in many countries have echoed the words 
of our past President when attacking their legitimate opposition, their 
courts, the independent press, and national legislatures.
    Meanwhile, here at home, efforts are underway in many states to 
chip away at the right to vote, the very cornerstone of freedom.
    To be clear, just as it is fraudulent for people to vote illegally, 
so it is fraudulent to deny citizens the best possible chance to cast 
their ballots within the law.
    When it comes to holding fair elections, there is no comparison: 
denial of the franchise, not deception at the polls, is by far the 
bigger problem.
    My third point is that building and sustaining democracy should be 
a first principle, not an afterthought, in U.S. foreign and national 
security policy. The reason should be clear to all of us.
    Look around the world from South Asia to Central Europe and from 
the Middle East to parts of Africa and Latin America; democracy is 
steadily losing ground.
    Not since the Cold War have we seen a broader or more ominous 
threat to human freedom.
    What should we do?--fall apart and retreat, or come together in 
defense of our core beliefs?
    When I was Secretary of State, I helped launch what we called the 
community of democracies, an effort that continued under the leadership 
of Ambassador Dobriansky in the Bush administration.
    We were committed to the idea that democratic governments should 
assist each other in creating jobs, improving services, and countering 
threats. The time is right to revive that sense of solidarity.
    For America that means helping to strengthen liberty's cause 
through the employment of every available foreign policy tool, 
including aid, trade, sanctions, bilateral and multilateral diplomacy, 
and partnerships with advocacy groups and the private sector.
    We must also apply the lessons we have already learned about the 
need for patience, inclusivity, a holistic approach, and remedies 
tailored to the individual circumstances of the countries involved.
    The bipartisan National Endowment for Democracy and its four core 
institutes--NDI, IRI, CIPE and the Solidarity Center--are rich sources 
of wisdom on all of these points.
    It has been my honor to be associated with these institutions since 
they were founded by President Reagan, and to have served as Chairman 
of NDI since 2001. I know they stand ready to work with this committee 
as it reviews and strengthens democracy programs.
    Now, some will tell you that a democracy-centered foreign policy 
reflects a kind of starry-eyed idealism and that the only way to 
protect our interests is through hardheaded realism.
    Is there some truth in that? Yes, I won't deny it.
    But in the vast majority of cases, support for democracy serves 
both our interests and our ideals.
    History has shown us that free countries make better neighbors, 
more reliable friends, and the only allies we can consistently count 
on.
    That is why backing for democratic values must be the centerpiece 
of any strategy to create a more secure, stable, healthy and prosperous 
global environment--the kind of setting in which Americans can thrive.
    A little more than a century ago, a U.S. President asked our armed 
forces to cross the ocean to make the world safe for democracy. Today, 
we must support democracy to make the world safe.
    And we should do so with confidence.
    Despite recent setbacks, we know that democracy is resilient and 
that so too is the United States. Our economy is one of the strongest 
and most innovative in the world because we have a system of government 
that supports the rule of law and protect the rights of individuals.
    We know as well that, even now, no words speak more powerfully to 
the aspirations of all people than that singular pledge of ``liberty 
and justice for all.''
    As President Biden wrote in the Interim National Security Strategic 
Guidance issued last week, ``we must prove that our model isn't a relic 
of history; it's the single best way to realize the promise of the 
future.''
    Mr. Chairman and members of the committee, there is much more I 
could say, but your time is precious and so I will stop now and look 
forward to any questions you might have.

    The Chairman. Thank you, Madam Secretary. We look forward 
to that opportunity to ask questions. Ambassador Dobriansky.

   STATEMENT OF AMBASSADOR PAULA J. DOBRIANSKY, FORMER UNDER 
     SECRETARY OF STATE FOR GLOBAL AFFAIRS, WASHINGTON, DC

    Ambassador Dobriansky. Thank you, Chairman Menendez, 
Ranking Member Risch, and other distinguished members of this 
committee. Good morning, and thank you also for inviting me to 
appear before you today to discuss a topic of great importance 
to the United States and to our allies. This hearing is timely 
and welcome, and I am also very delighted to share this panel 
with Secretary Albright. I will submit my full testimony, but I 
am going to try to abbreviate it to stay within the time frame.
    Great power and competition defines the current 
international environment and shapes the prospects for 
democracy development. China and Russia are seeking to diminish 
American power and influence, fragment our alliances, and 
undermine other national security interests of the United 
States. We can expect strategic competition with Beijing and 
Moscow to continue and even intensify. How to deal with these 
threats should be a central focus of U.S. foreign policy going 
forward. Defending democracy and universal freedoms must be a 
key element of U.S. strategy.
    Speaking at the Munich Security Conference in 2007, Russian 
President Vladimir Putin warned of a new era of confrontation 
with the West, asserting Russia's prerogative to carry out an 
independent foreign policy. He asserted that Western values are 
not Russian values. And despite over two decades of efforts to 
incentivize China to be a responsible stakeholder, its leaders 
continue to pursue aggressive regional and global behavior, to 
violate international trade norms and standards, and to commit 
egregious human rights abuses against its own people, including 
Tibetans and Uyghurs. As I speak today, Beijing is also tearing 
up the 1984 Sino-British Joint Declaration and stripping away 
Hong Kong's democracy.
    China and Russia have become increasingly aligned, even 
though they have not established a formal alliance. As Steve 
Hadley and I wrote in the Atlantic Council's Insights Memo, 
Russian and Chinese leaders share an authoritarian, ideological 
orientation, and perceive American power and democratic values 
as a threat. They are working together more closely to 
undermine American influence and discredit our political 
economic and social system. In Latin America, Africa, Europe, 
and the Middle East, China and Russia have used proxies, 
economic instruments, disinformation campaigns, election 
interference, corrupt relationships, energy resources, and soft 
power to subvert both fragile and well-established democratic 
governments, and, thus, to foment instability. They have 
engaged Iran, Venezuela, and Cuba in these anti-American 
efforts.
    Venezuela is a flashpoint for Chinese and Russian 
investment and malign influence. Both nations have invested 
billions into Venezuela, taking advantage of its economic and 
political weakness, its vast petroleum resources, and their 
close relationships with a corrupt Maduro regime. Russian arms 
manufacturers sold $4 billion worth of weapons to Venezuela 
over the last 10 years, and China has invested some $67 billion 
in Venezuela since 2007. These instruments have propped up an 
illegitimate government and have undermined prospects for 
democracy, but it does not stop there.
    Russian disinformation and election interference campaigns 
have targeted Columbia. In late 2019, Colombian Vice President 
Marta Lucia Ramirez accused Russia and its allies in Venezuela 
of fomenting protests through social media campaigns. A few 
months later, New York Times journalist, Lara Jakes, reported 
on a State Department assessment that described Russian-linked 
social media accounts as conducting an influence campaign. That 
campaign has been under way not only in Colombia, but elsewhere 
in South America. By undermining democracies in the region, 
Russia and China seek to create instability in our backyard.
    Russia and China have expanded investments in Africa as 
well. In 2003, annual Chinese direct investment in Africa was 
just $75 million, but by 2009, it reached $2.7 billion. Through 
its One Belt One Road Initiative, China is offering fragile 
democracies in Africa new rail lines, highways, and other 
infrastructure projects. African nations are finding that these 
projects have left them with massive debt and a lack of 
control. Russia is also increasing its investments in Africa, 
too, especially its military presence. It is striving to create 
a Red Sea Naval Logistics Facility in Sudan.
    Russia and China are waging a fierce battle against 
democracy through disinformation campaigns, cyber intrusions, 
investments, and attacks on Western values. China's substantial 
economic, financial, and technological leverage also constrains 
how countries can respond to this, whether in Europe, the 
Middle East, or elsewhere. So defining democracy and promoting 
democracy and human rights--defending and promoting democracy 
and human rights abroad is not only a moral imperative, but 
also a sound strategic approach.
    Let me just briefly respond to what are the most effective 
means of achieving this core objective: a strong military and 
economic foundation at home; working closely with our allies 
and other nations to advance a coherent, compelling moral 
narrative about democracy and Western values; overcoming 
others' complacency to secure the support in challenging the 
falsehoods put forth by Moscow and Beijing; providing fragile 
democracies with humanitarian assistance through USAID as well 
as democracy support through such institutions as the NED 
family, the Development Finance Corporation, and EXIM Bank; 
imposing targeted sanctions against specific activities, such 
as Russia's energy investments in Venezuela; sanctioning 
government officials or others responsible for corruption and 
human rights violations through the Global Magnitsky Act of 
2016. I have strongly advocated for the use of Global Magnitsky 
against Cuban officials and their accomplices who have 
committed gross violations of human rights, including modern-
day slavery by trafficking of doctors, work to destabilize 
democracies in the Western Hemisphere, and collaboration with 
China, Iran, and Russia. And significantly, in January of this 
year, Treasury's Office of Foreign Assets designated the Cuban 
Ministry of Interior and the first Cuban official, the minister 
of interior, Lazaro Alberto Alvarez Casas, for serious human 
rights abuses against Jose Daniel Ferrer, who is held in a 
Ministry of Interior-controlled prison.
    So, in conclusion, let me say Ronald Reagan advanced a 
foreign policy predicated on U.S. global leadership, military 
strength, and moral clarity. We bolstered our ties to 
democratic allies, challenged regimes hostile to our interests 
and values, and promoted political and economic freedom abroad. 
This strategic approach advanced both U.S. interests and global 
freedom. It was successful then and can be successful today. 
Thank you.
    [The prepared statement of Ambassador Dobriansky follows:]

              Prepared Statement of Ambassador Dobriansky

    Chairman Menendez, Ranking Member Risch, and other distinguished 
members of this Committee, good morning and thank you for inviting me 
to appear before you today to discuss a topic of great importance to 
the United States and to our allies. This hearing is timely and 
welcome.
    Great power competition defines the current international 
environment and shapes the prospects for democracy development. China 
and Russia are seeking to diminish American power and influence, 
fragment our alliances, and undermine other U.S. national security 
interests. We can expect strategic competition with Beijing and Moscow 
to continue and even intensify. How to deal with these threats should 
be a central focus of U.S. foreign policy going forward. Defending 
democracy and universal freedoms must be a key element of U.S. 
strategy.
    Speaking at the Munich Security Conference in 2007, Russian 
President Vladimir Putin warned of a new era of confrontation with the 
West, asserting Russia's prerogative to ``carry out an independent 
foreign policy.'' He asserted that Western values are not Russian 
values. And despite over two decades of efforts to incentivize China to 
be a ``responsible stakeholder,'' its leaders continue to pursue 
aggressive regional and global behavior, to violate international trade 
norms and standards, and to commit egregious human rights abuses 
against its own people, including Tibetans and Uighurs. As I speak 
today, Beijing is tearing up the 1984 Sino-British Joint Declaration 
and stripping away Hong Kong's democracy.
    China and Russia have also become increasingly aligned, even though 
they have not established a formal alliance. As Steve Hadley and I 
wrote in an Atlantic Council Insights Memo, ``Russian and Chinese 
leaders share an authoritarian ideological orientation and perceive 
American power and democratic values as a threat.'' They are working 
together more closely to undermine American influence and discredit our 
political, economic and social system.
    In Latin America, Africa, Europe and the Middle East, China and 
Russia have used proxies, economic instruments, disinformation 
campaigns, election interference, corrupt relationships, energy 
resources, and soft power to subvert both fragile and well-established 
democratic governments and thus to foment instability. They have 
engaged Iran, Venezuela and Cuba in these anti-American efforts.
    Venezuela is a flashpoint for Chinese and Russian investment and 
malign influence. Both nations have invested billions into Venezuela 
taking advantage of its economic and political weakness, its vast 
petroleum resources, and their close relationships with the corrupt 
Maduro regime. Russia's state oil firm, Rosneft, imported 503,000 
barrels per day of oil in 2019, 62 percent of Venezuela's total oil 
exports that year. Russian arms manufacturers sold $4 billion worth of 
weapons to Venezuela over the last 10 years. And China has invested $67 
billion in Venezuela since 2007. These investments have propped up an 
illegitimate government and have undermined prospects for democracy. 
Iran and Venezuela have cooperated to bypass damaging U.S. sanctions on 
both their countries. Iran has also sent ships to Venezuela loaded with 
gasoline and petroleum refining equipment, technical experts and 
supplies.
    But it doesn't stop there. Russian disinformation and election 
interference campaigns have targeted Colombia. In late 2019, Colombian 
Vice President Marta Lucia Ramirez accused Russia and its allies in 
Venezuela of fomenting protests through social media campaigns. A few 
months later, New York Times journalist Lara Jakes reported on a State 
Department assessment that described Russian-linked social media 
accounts as conducting ``an influence campaign.'' The campaign had been 
underway not only in Colombia, but elsewhere in South America, 
including Chile, Bolivia and Ecuador. By undermining democracies in the 
region, Russia and China seek to create instability in our backyard.
    Russia and China have expanded investments in Africa as well. In 
2003, annual Chinese foreign direct investment in Africa was just $75 
million. By 2019, it reached $2.7 billion. Through its One Belt One 
Road Initiative, China is offering fragile democracies in Africa new 
rail lines, highways, and other infrastructure projects. African 
nations are finding that these projects have left them with massive 
debt and a lack of control. Russia is increasing its investments in 
Africa too, especially its military presence, by sending mercenaries to 
Mozambique, Libya, and the Central African Republic. Moscow is striving 
to create a Red Sea naval logistics facility in Sudan too.
    China and Russia are waging a fierce battle against democracy 
through disinformation campaigns, cyber intrusions, investment, and 
attacks on Western values. China's substantial economic, financial and 
technological leverage constrains how many countries can respond to 
this, in Europe, the Middle East, and elsewhere.
    Defending and promoting democracy and human rights abroad is not 
only a moral imperative but also a sound strategic approach. What are 
the most effective means of achieving this core objective? There are 
several:

  <bullet> a strong military and economic foundation at home,

  <bullet> working closely with our allies and other nations to advance 
        a coherent, compelling moral narrative about democracy and 
        Western values,

  <bullet> overcoming others' complacency to secure their support in 
        challenging the falsehoods put forth by Moscow and Beijing,

  <bullet> countering influence operations in social media and exposing 
        them for what they are,

  <bullet> providing fragile democracies with humanitarian assistance 
        through USAID as well as democracy support through institutions 
        such as NED, IRI, NDI, the Development Finance Corporation, and 
        Eximbank,

  <bullet> imposing targeted sanctions against specific activities 
        (such as Russia's energy investments in Venezuela), and

  <bullet> sanctioning government officials or others responsible for 
        corruption and human rights violations through the Global 
        Magnitsky Act of 2016, including asset freezes, travel bans and 
        exclusion from financial services.

    I have strongly advocated for the use of Global Magnitsky against 
Cuban officials and their accomplices, who have committed gross 
violations of human rights, including modern day slavery by trafficking 
of doctors, worked to destabilize democracies in the Western Hemisphere 
and collaborated with China, Iran, and Russia. Significantly, in 
January 2021, Treasury's Office of Foreign Assets designated the Cuban 
Ministry of Interior and the first Cuban official, the Minister of 
Interior, Lazaro Alberto Alvarez Casas, for serious human rights abuses 
against Jose Daniel Ferrer held in a Ministry of Interior-controlled 
prison.
    Ronald Reagan advanced a foreign policy predicated on U.S. global 
leadership, military strength and moral clarity. We bolstered our ties 
to democratic allies, challenged regimes hostile to our interests and 
values, and promoted political and economic freedom abroad. This 
strategic approach advanced both U.S. interests and global freedom. It 
was successful then and can be successful today.

    The Chairman. Well, thank you very much to both of you for 
your testimony. Let me start a series of 5-minute rounds here 
for this first panel.
    Secretary Albright, China is one of our biggest challenges 
in the context of democracy and human rights. What do you think 
are some of the most effective ways for the United States to 
push back on China's efforts to erase the tenets, principles, 
and international organizations that have enabled so much human 
progress?
    Secretary Albright. Mr. Chairman, I do think that there is 
no question that China is our biggest problem and that they are 
out there hustling in every single way. And I have made very 
clear that with the Belt and Road policies that they are 
undertaking, the Chinese must be getting very fat because the 
belt keeps getting larger and larger, and some of it does have 
to do with the fact that we have been absent and they are 
filling a vacuum. And so we need to make clear that we need to 
be back, and really do need to make clear in so many ways that 
we are a leader in restoring and building democracy in other 
countries.
    I do think that we have to speak out very clearly about 
what the problems are with the Chinese behavior and that it is 
a complex relationship. One has to say that they are an 
adversary, there is no question, militarily in terms of the 
kinds of things that they are doing in the South and East China 
Sea and threatening Taiwan. They are a competitor in so many 
different ways in undermining various rules of technology and 
stealing international--intellectual property, and they are 
competing with us in so many ways, but there are issues on 
which we have to cooperate. And I was very interested in 
reading this morning that there already is a way for there to 
be cooperation on dealing through the G20 with Secretary Yellen 
and a Chinese representative from the Central Bank on some of 
the economic aspects of climate change.
    So it is a complex relationship, but the most important 
thing we have to do is tell the truth and speak out when what 
they have done in Hong Kong is unacceptable. I was there when 
we did the turnover, and the bottom line is this is not the way 
that it was supposed to work out, and we have to push back on 
that. And I do think that some of our measures have to do with 
imposing a series of sanctions on those who are responsible, 
and we also have made--have to make absolutely clear that we 
will not waver on our relationship with Taiwan.
    I was very interested that President Biden in his Interim 
National Security Guidance made very clear that we would 
continue to work with Taiwan and to be able to push back on 
whatever threat there is to them, but it is the most 
complicated relationship we have with China. We have to pay 
very close attention. We have to use the tools we have, which 
are the military, the diplomatic, and the economic through 
sanctions.
    The Chairman. Thank you. Last week, Freedom House published 
their annual Freedom in the World report. They called it 
``Democracy under Siege.'' It highlights that 2020 was the 15th 
consecutive year of decline in global freedom and the corrosive 
efforts of China and Russia to curtail freedom. Other 
disturbing trends include the rise of digital authoritarianism, 
the exploitation of COVID-19 by liberal leaders to close space 
for civil society journalists and human rights defenders. So 
what would you both say is the main drivers for this decline, 
and is there a difference between the threats to establish 
democracies compared to threats to developing or fragile 
democracies? We will start with you, Ambassador Dobriansky.
    Ambassador Dobriansky. Thank you for the question. I would 
start with a number of factors that have, I think, contributed. 
As my opening remarks indicated, I think the activism of both 
China and Russia both have worked extremely hard to undermine 
Western values and they have stated it very openly and very 
directly, and this is not new. That is why I cited, starting 
with Putin's remarks in the Munich Security Conference of 2007 
and moving forward. Both have tried to justify the kind of 
violations of human rights and the kind of suppression that 
exists both in Russia and China and deflect what is happening 
there elsewhere.
    Secondly, it is very much geared against the United States, 
seeking to diminish our power, no less, and our influence, no 
less the very values that we stand for, and also our alliances 
and fragment our alliances. I would start with that. And then 
secondly, I think we have been complacent. I think over the 
last decades and in these 15 years, when you look at it, there 
has been a kind of complacency where we have almost taken for 
granted that we are strong, that our values have permeated and 
have been taken on across the globe. And I think it is a wake-
up call that we have to work harder at this.
    And then I would also add that in the mix, that you do have 
a number of rogue regimes that have also added on to Russia and 
China and the greater closeness of their relationship, which 
has really come about more in recent years, militarily, 
economically, and politically, and that, too, with the 
assistance of Iran, Cuba, among others, Venezuela, Nicaragua, 
that also has furthered that case. Finally, because you 
mentioned the digital piece, I think that we are also seeing 
the advent of technologies and the degree to which technologies 
have also the--changed the way in which we need to advocate for 
democracy, that there are new instruments that are, in fact, 
being used and which we have to be more vigilant, aggressive, 
and actually redesign our advocacy for democracy and our 
defense of democracy, and I think that is an area where we have 
come up short. We have been under attack, and we need to be out 
in front.
    The Chairman. Thank you. Senator Risch.
    Senator Risch. Thank you. Secretary Albright, let me start 
with you on a question I would have about this subject 
generally, and that is your proposition about the Community of 
Democracies. You know, it amazes me that there are countries 
who claim to be democracies that have things in place that 
are--that are not democratic at all. They think holding an 
election is all you need to do to claim yourself a democracy 
where we know that a democracy--the basis of a democracy is 
that power is in the hands of the people and not in the hands 
of a regime that can hang on through military might or what 
have you. And how do you--how do you handle that? How do you 
underscore the fact that simply because you have an election 
does not mean you are a democracy?
    I think probably the best example of that, and there are a 
number of countries around the world that do this, but Iran has 
an election, and so why are they not a democracy? Well, they 
are not a democracy because a committee gets together and 
decides who can run and who cannot run, and that way the--those 
that are in charge, a regime, holds power by holding an 
election and then claiming it is a democracy. How do you push 
back on that? What are your thoughts on that? What are the 
arguments on that?
    Secretary Albright. Well, thank you very much for asking 
that. And let me say when we started the Community of 
Democracies, one of the whole problems--excuse me--was whom do 
you invite.
    Senator Risch. Right.
    Secretary Albright. You know, exactly as you say, not only 
some that were doing the opposite kind of things than 
democracies, but those that had very fragile democracies that 
were not really working. And so that has been the problem with 
the Community of Democracies. And as people think about how to 
have a democracy summit, one has to kind of think about who 
do--whom do you invite and who are the--which are the countries 
that need to be supported with nascent democracies and those 
that need help when they are fragile democracies. There are a 
number of different ways of dividing all that up.
    I do think the question of elections is always interesting 
because the thing that I have always said is elections are 
necessary, but not sufficient. Obviously they are a beginning, 
but there is a requirement for a set of institutional 
structures that go with them that establish a rule of law that 
is absolutely essential that is able to deal with some of the 
problems of corruption in various democracies, that is also 
able to deal with how people behave with each other, the 
establishment of a civil society that really operates and how 
democracy has to deliver. I think that is one of the problems. 
There are always these discussions about how and whether 
economic and--economic policy is also part of a democracy 
building policy, and I have said yes because people want to 
vote and eat. And, therefore, there has to be a way that some 
of the economic divisions that have been created are not 
exacerbated by those who make them worse, but in some ways, 
there is a way of dealing with what used to be called the 
social contract, and that people are, in fact, treated fairly, 
that the state has a responsibility towards them, and that they 
have a responsibility towards the state.
    But it is a very difficult issue, and I am very glad that 
you all are considering this, is how do you decide what is a 
democracy, and the truth is that a democracy is always a 
journey. That is part of it, and we can never think that it is 
done, and there is--we have just shown the problems that we as 
the world's oldest democracy have had. We see the problems in 
India, which is the world's largest democracy, and that there 
has to be some way to determine which--what are the tools that 
we use, along with our partners, in trying to strengthen new 
democracies, how we deal with fragile democracies, and how we 
do not let them be taken advantage of.
    But as has been mentioned--Ambassador Dobriansky did--the 
issues of technology, which are under--technology is really an 
incredible gift, but it also has become a tool for those who 
want to undermine democracy. So you have set out a very large 
goal for all of us--Congress, and the executive branch, and 
those of us that are out of government--in terms of the various 
parts that we can work on with the National Endowment of 
Democracy, our various partners in that, in order to push back 
against those who think they have a democracy when they have an 
election, or when they decide not to live up to their 
constitutions by saying, yes, we will just extend the terms 
that we have, which are part of the questions that are going on 
in Africa at this particular time.
    Senator Risch. Thank you very much. Mr. Chairman, I wonder, 
this is the foundational question really of what we are talking 
about here. I wonder if you would give Ambassador Dobriansky an 
opportunity to respond to that. I know my time is up, but----
    The Chairman. Please go ahead.
    Senator Risch. Thank you.
    Ambassador Dobriansky. And I will try to give a very brief 
answer. Secretary Albright is correct in saying that in 
thinking about the Community of Democracies, it is a challenge. 
It is a challenge in determining who is at the table. And my 
answer to you would be that it was not perfect, and we erred on 
the side, quite frankly, of looking at those democracies that 
were solid, those democracies that were fragile, and by putting 
them at the table, it would actually be in our interest and may 
be in their interest in doing so, and then excluding those that 
we felt absolutely should not be at the table. And, quite 
frankly, I will say to you that one of the toughest decisions 
was actually dealing with who is represented from the Middle 
East.
    And I remember quite well because, when I was under 
secretary and we held the first Community of Democracies 
meeting. By the way, it happened to be in South Korea. But in a 
later meeting, I remember that we had a lot of challenges 
because of also evolution of democracy. As the Secretary said, 
democracy is--and the evolution of democracy is not linear, and 
you are going to experience challenges. So even though you have 
a certain group at the table, then it may not be the same group 
as you go on.
    But I would end on this note. There was another component 
to this that I think was also important which we advocated for 
very strongly, that you not only have country representation, 
but you also have the representation of the NGOs.
    Senator Risch. Right.
    Ambassador Dobriansky. And, bluntly speaking, some of the 
countries were very resistant to that being the case, but we 
persevered and we ensured that NGOs were also at the table so 
there was a transparent, open discussion.
    Senator Risch. Thank you. Thank you very much. Thank you.
    The Chairman. Thank you. Senator Cardin, I understand, is 
with us virtually.
    Senator Cardin. Thank you, Mr. Chairman, and let me thank 
both of our witnesses. There is no question that democracy is a 
journey, and there is no question that globally we are seeing a 
significant decline in democracies and the--how democratic--our 
so-called democratic states are. So it is clearly a critically-
important point for the United States' future and security to 
strengthen and preserve democracies starting at home, but 
globally. So as we look at how we go about doing it, I could 
not agree more with our witnesses that the U.S. must be in the 
leadership, and we must devote the resources. That means we 
have to devote the resources in our missions and diplomacy, our 
foreign assistance, all of the above. And I want to just point 
to one area of grave concern, and, that is, we have seen not 
only a decline of democracy globally, but we have seen a rise 
of corruption globally. And every country has corruption, but 
in autocratic states, generally the corrupt system finances the 
autocratic policies, and the violations of human rights, and 
the ability to maintain power in the country.
    So let us talk about what we could do to strengthen our 
anti-corruption efforts. First, let me talk a little bit about 
foreign aid, and let us talk about this because we have used 
foreign assistance to try to strengthen good governance in 
countries, and yet we have had limited success. I point to 
Central America, which is a country that has had significant 
problems of corruption, or Ukraine. Is there a better way that 
we can use our foreign aid? Should it be larger? Should it be 
more focused in order to deal with the institutions that are 
important to preserve democracy and to fight corruption? Both 
of you have mentioned the use of sanctions, something that I 
strongly support. Sanctions worked. Look at all the fuss over 
Dan Gertler's attempt to get an exception from the sanctions 
and how significant it was that President Biden reversed that 
particular decision, or look at the topic in the first summit 
meeting between President Putin and President Trump. The 
Magnitsky sanctions clearly were brought up. They are working, 
and I--we strongly support that, and Senator Wicker and I have 
introduced legislation to reauthorize and make permanent the 
Global Magnitsky statute here in the United States. So we can 
clearly use sanctions more effectively.
    But I just really want to mention one other tool that 
Senator Young and I are working on, and that is to use the 
model of Trafficking in Persons where we have transparency in 
what every country is doing to fight modern-day slavery, to use 
a similar method to evaluate how well countries are doing in 
fighting corruption, and then using that as our guide for our 
bilateral relations.
    So I just would like to give both of our witnesses an 
opportunity, if they could, to respond. How important is it for 
us to fight corruption, and how effective have we been in our 
efforts to rid the financial support of autocratic governments 
through use of a corrupt system?
    Secretary Albright. Senator, if I might, I think that it 
is--corruption is the cancer of democracy, and I think it is 
something that has to be worked on very actively. I think your 
last point about using some of the legal methods that we have 
is very important and to look at other models. I think that 
there are several things that can be done better, but this is 
always disputable whether some of our assistance needs to be 
conditioned on a series of things that have to happen 
specifically, and whether there really is a way to measure 
whether those conditions are being met.
    And one of the whole aspects of what the--France's NDI 
works on a lot is to establish institutions with the importance 
of the rule of law and make sure that it is really carried out, 
but that needs really help in terms of--I hate to say this--but 
the threats of the sanctions. Sanctions are a way, I think, to 
individualize more what--the various steps that have to be 
taken, and to really make clear that those are kind of targeted 
sanctions on those that are the villains in this literally, and 
then also help the legal government to deal with them itself 
through their legal systems. But I do think that we are not 
going to be able to find ourselves into a positive place in 
supporting democracy everywhere if we do not recognize that 
corruption is the cancer that we are dealing with that has to 
be eliminated through the steps that I have outlined and Paula 
has also.
    Ambassador Dobriansky. Thank you. Senator Cardin, 
corruption certainly does tear at the very fiber of democracy. 
It is the cancer, as Secretary Albright said. The three 
propositions you put forward I agree with. First, I do think 
that foreign aid should be allocated towards this purpose in 
strengthening rule of law and judicial processes in order to 
ensure that corruption is stemmed. Also, you mentioned the 
Trafficking in Persons model. I happened, as you may recall, to 
have been the undersecretary of state when the first 
Trafficking in Persons Office actually was established at the 
State Department. I know that model well, and I think you are 
right in putting that forward as food for thought here. It has 
been a very effective one in dealing with trafficked victims 
and stemming the tide there, although it is still a human 
rights abuse in many countries.
    And then I want to go to sanctions. I believe firmly in the 
effective deployment of sanctions, and particularly targeted 
sanctions. And I do not know if you heard, but in my opening 
remarks, I particularly focused on Global Magnitsky, how 
effective it has been, and I was delighted to see that Global 
Magnitsky was deployed for the first time ever, in fact, 
against Cuba and identifying the Cuban minister of interior, 
and for the kind of human rights abuses that he has presided 
over, particularly with regard to Jose Daniel Ferrer. But also 
I have advocated for putting corruption into Global Magnitsky 
because it is not just about human rights abuses. It is also 
about corruption, and what we have seen certainly with the 
trafficked Cuban doctors, which relates to human rights abuses 
and outright corruption. So I think, Senator, what you have 
said is exactly right, and that is what we should be doing.
    The Chairman. Thank you.
    Senator Cardin. Let me just thank both the witnesses.
    The Chairman. Thank you.
    Senator Cardin. I did hear your opening statement. I have 
been listening to it, but let me just point out that the U.S. 
Global Magnitsky law does apply to corruption. Unfortunately, 
the European version is not as strong and it is something we 
should be working on. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Romney.
    Senator Romney. Thank you, Mr. Chairman, and thank you to 
both of the witnesses on this panel. Most instructive. We have 
seen the retreat of freedom in numerous countries around the 
world, and you have both described the malevolent effort on the 
part of Russia and China in pushing their agenda. Why are we 
failing? Why are we less successful? We are the largest economy 
in the world. We spend massive amounts on our military, on our 
soft power, and yet we are--we are seeing the retreat of that 
which is essential to our freedom and to our prosperity and to 
the well-being of people throughout the world. If you had to 
help us understand what we are not doing right and what we need 
to do differently, what might that be? And let me start with 
Secretary Albright and then Ambassador Dobriansky.
    Secretary Albright. Thank you very much, Senator Romney. I 
think that it is a basic question as to why we are failing. I 
do think that in some ways, we were taking too much for granted 
at the end of the Cold War when all of a sudden there was this 
great spurt of democracy and countries wanted to figure out how 
to have democratic governments. They did not have the 
infrastructure for it. And it is interesting because President 
Reagan, when he spoke in Parliament, he said that the problem 
was that we were not very good at defining ``democracy'' versus 
``communism,'' and I think that is true. That is why we--he 
established the National Endowment and the various institutes 
under it, and we were doing very well, frankly, immediately 
after the Cold War.
    And I think--and I keep asking myself the question of then 
what happened. And I think that we took for granted in many 
ways that countries would automatically understand that there 
were still malevolent forces within the countries that were 
going to undermine it, and that the various economic divisions 
were then--they are set out for demagogic leaders to 
exacerbate. I also think that we have been somewhat naive about 
the methods that the Russians specifically--we are dealing with 
a former KGB officer. Putin knows how to use a variety of 
tactics to undermine other countries and is using the new 
technology in ways that we have not developed a good enough 
defense system.
    And so I do think that one of the things that is going to 
have to happen, and from my sense, is that as I read some of 
the Biden material, they are aware of the kind of undermining 
that is being done through cyber and misinformation in the way 
that technology is being used, and the Chinese and the others 
are doing it. And so I think that having this kind of a hearing 
and having really the sense that we have, one, not paid enough 
attention, we have been AWOL, two, that, in fact, we have not 
used our ``public diplomacy tools'' well enough in order to 
counter a lot of what is going on, and really then have more 
defensive ways of dealing with the cyberattacks and things that 
have been going on, and understanding that there are an awful 
lot of holes in the way that we are responding to this new 
threat.
    Senator Romney. Thank you, Madam Secretary.
    Ambassador Dobriansky. Senator, thank you for the question. 
I would use the term which I used before in response to the 
Chairman's first question, which is ``complacency.'' I believe 
that we have been very complacent about what we are about, and 
when I look at the past and certainly post-cold War to the 
present time, we have not been engaged in advocating, strongly 
advocating for our values and what we are about. So 
complacency, I think, has been problematic, but combined with 
the fact that we have not adjusted to the new kind of 
ideological warfare.
    I remember that you years back had identified Russia as our 
geopolitical foe, and absolutely we have to adapt to the kinds 
of instruments that are being used to undermine not just our 
values, but values in human freedoms at large. There is this 
kind of effort that is taking place, as my statement just 
started off with, the great power competition, which is geared 
specifically to undermining not just U.S. power and to fragment 
our alliances, but, in fact, to stem the tide of democracy 
development. So complacency has to be addressed, an awareness 
of the kinds of new instruments that we should be using to 
advance democracy.
    And I would also add in this a moral narrative, and the 
moral narrative is truly important, and not just us. It has to 
be with our allies, our partners, those who subscribe to 
democratic values, to understand that there is this kind of 
ideological challenge and battle of ideas. And finally, I would 
just say, which I think is the essence of this hearing, which I 
welcome very much today, and that is that democracy needs to be 
a core element of U.S. foreign policy, and integrated at the 
front end, as has been said many times here this morning, not 
at the back end.
    Senator Romney. Thank you.
    The Chairman. Thank you. Senator Coons.
    Senator Coons. Thank you, Mr. Chairman. Chairman Menendez, 
Ranking Member Risch, I think it is a great signal that we are 
doing this hearing on democracy early in this Congress, and 
that the message that you have sent with your opening 
statements with your engagement is of coming together around 
this important and urgent work of defending democracy. We have 
got two great witnesses on our first panel to hear the 
questions that have been asked about Venezuela, about Cuba, 
about Sudan, about Ethiopia, about countries around the world 
where democracy is on its back foot. And where authoritarian 
forces, like the regimes in China and Russia, and some of their 
partners in Venezuela, and Iran, and Cuba are on the march. It 
gives me a sense of encouragement that we are having this 
bipartisan and purposeful conversation at this critical moment 
in the arc of democracy in human history.
    So if I could, to Madam Secretary, Secretary Albright, your 
opening was just tremendous and inspiring. I was texting two of 
my kids who are college students and said, if you can find this 
right now, you should watch it. It is more important than 
anything you are learning in class. And to Under Secretary 
Dobriansky, thank you as well for your voice, and your service, 
and for your engagement.
    I do not think that our toolkit has kept up with the 
emerging threats to democracy, and, in particular--in 
particular, both the manipulation of technology by 
authoritarian regimes. The chairman put out a very powerful 
report about digital authoritarianism and the ways in which 
China is using the tools in the digital age. But I also do not 
think we have matched it with good old-fashioned engagement, 
outreach, and investment. The Development Finance Corporation 
is an attempt in a small way at answering the Belt and Road 
Initiative. The Millennium Challenge Corporation is an attempt 
at continuing to engage in development in fragile states where 
we are trying to provide support. But we are under funding 
democracy and governance, and I think we are underutilizing 
those tools.
    As the chairman in this Congress of the Appropriations 
subcommittee that will help give some resources and some lift 
to these initiatives, I would welcome your thoughts, Madam 
Secretary, Madam Under Secretary, on how we can strengthen our 
toolkits so that those countries that are fragile and that are 
backsliding that want to choose to come our way have got both 
the means and the ability to do so before civil space closes 
irreparably, and before they end up captured in the debt trap 
diplomacy of the Belt and Road Initiative irreversibly. Madam 
Secretary, if I could first go to you.
    Secretary Albright. Well, thank you very much, and I do 
think that part of the problem has been--is that there is a 
movement on the other side. There is kind of rising nationalism 
in a number of different countries, which is interpreted in 
many ways in creating what has been now called illiberal 
democracies. Hungary is a perfect example of that where Orban, 
who used to be one of our favorite dissidents, all of a sudden 
decided that he was going to use the problem of immigrants or 
ethnic groups within Hungary to try to make nationalism greater 
and then pushing back on democracy in every way. By the way, 
one of the books I wrote was called ``Fascism: A Warning,'' and 
I do think that it is--it was a warning in terms of the fact 
that the basic divisions that are in society are then 
exacerbated by those leaders who want to make them worse, 
identify with one group at the expense of another who then 
become the scapegoat. So I think we need to look generally at 
what is going on in countries.
    I also do think that we need to make our tools stronger or 
sharper, so to speak. I think that--I will obviously speak very 
strongly about the importance of funding the National Endowment 
for Democracy, various groupings, and we work together. By the 
way, one of the things that I always enjoy as chairman of NDI 
is to work with Senator Sullivan and IRI and do things together 
to show that working in bipartisanship is very important, that 
something that is the basic element of democracy is respect for 
an opposition party. So us working together and getting funding 
is--I cannot begin to stress how important it is. And I will be 
very happy, if I am welcomed, specifically to talk about the 
budgets because I do think they make a difference.
    I also think that we have not done enough recently to 
really look at how information can be exchanged--not 
propaganda, but information--and that the various instruments 
that are part of that have been either underfunded or have been 
malignly used in different ways. And we are dealing with a very 
different kind of system, as I mentioned earlier, that the 
Russians are able to use from their Communist Party experience. 
And I do think that what we have to figure out is how to put 
our money in a way where it really does make a difference, and 
the aid programs, and you mentioned the MCC and a number of 
ways. And you have been instrumental in helping the Institute 
of Peace--by the way, Paula and I were on this together--about 
how to deal with fragile states because they then become petri 
dishes for those who hate us and are very dangerous. And I 
think we need to keep examining how to do that.
    Senator Coons. Thank you, Madam Secretary. If I might, just 
a closing point that Senator Cornyn and I have a bipartisan 
bill about strengthening civics education within the United 
States. In recent surveys, there are as many young Americans 
who support and believe in socialism as believe in capitalism. 
There are profound doubts about democracy, particularly after 
the events of January 6th and the disinformation about the 
value and legitimacy of free and open societies that we have 
lived through. It is my hope that on a bipartisan basis, we can 
move to a renewed investment in civics education to strengthen 
our own democracies you have both spoken to.
    The Chairman. Thank you.
    Senator Coons. Mr. Chairman, I see my time has expired, and 
I appreciate your indulgence.
    The Chairman. Absolutely.
    Ambassador Dobriansky. Mr. Chairman, may I give a----
    The Chairman. If you can----
    Ambassador Dobriansky. I will be very fast. I just want to 
say the Senate----
    The Chairman. I am sorry. Time wise, we are a little 
constrained, so.
    Ambassador Dobriansky. I am going to be very fast. The 
Senate--Senator, you are correct on the toolkit. We definitely 
need to ramp up our toolkit. Secondly, you mentioned the 
Development Finance Corporation and also EXIM Bank and--or MCC. 
Both play an important role. And I did want to add EXIM Bank, 
and the reason why I happen to chair the Chairman's Council on 
China Competition at EXIM Bank, and, quite frankly, our 
businesses are not on a level playing field, quite frankly, 
with what the Chinese are doing. So, let me just say it is an 
important question, and it is one that has to be dealt with, 
the toolkit.
    The Chairman. Thank you very much. I am sure, as the 
chairman of the subcommittee, he will have--Senator Coons will 
have opportunities to further involve himself in getting the 
expertise he wants to hear from, but thank you for the 
question. With that, I understand that Senator Johnson is with 
us virtually.
    [No response.]
    The Chairman. Senator Johnson?
    [No response.]
    The Chairman. Okay. Well, maybe we will come back to him. I 
understand that Senator Paul is with us virtually.
    [No response.]
    The Chairman. Senator Paul?
    [No response.]
    The Chairman. Okay. Then let us go to Senator Rounds, who I 
understand is with us virtually.
    Senator Rounds. Yes, Mr. Chairman. Thank you, sir.
    The Chairman. Senator Rounds is recognized.
    Senator Rounds. Thank you, and I would just like to take 
this opportunity to thank both of our panelists today for their 
service to our country, and thank you very much for your expert 
testimony today as well.
    I think the most recent conversations that have been going 
on here, I think, are getting to the heart of something that we 
should discuss in more detail with regards to those countries 
who we would love to have join the group of democracies around 
the world. They look at the United States as someone, an 
organization that they would love to have as an ally, as a 
friend, as a partner in business, and working in humanitarian 
efforts as well. And yet in many cases, we are seen as coming 
in as a big brother and basically looking at them saying, we 
are going to tell you how you ought to do business. We are 
going to tell you how you should change things in your own 
country. At the same time, you have both Russia and China, as 
you have indicated, both looking at our very open society and 
the way that we not only are self-critical, which is 
appropriate, where we try to make ourselves a more perfect 
union, they see it as saying that we are not perfect and we 
should not be criticizing those who we are suggesting that we 
know better than.
    And yet at the same time, while both Russia and China are 
more than willing to criticize us and to point that out to the 
individual organizations or countries or leaders in countries 
that we are not perfect, they also come in with a huge toolkit, 
and I wanted to explore that just a little bit more. How do we 
as a Nation not only come in to say, look, we think there is a 
better way, and we think it is more appropriate to exercise a 
government which is democratic in nature, and at the same time, 
though, say that we want to be your business partner? What are 
we missing in the tool bag? Both of you have kind of spoken to 
the fact that that tool bag is so critical. Could you take just 
a few minutes and share with us what you think are the items in 
the tool bag that either need to be improved upon or that need 
to be added?
    Secretary Albright. May I start? I do think that one of the 
things that we have made a point of with NDI is not to go 
around just saying it is the American way or no other way. I do 
think that it is important to work with other democratic 
countries to talk about that there is no one exact model, but 
that it is really the role of the people, and civil society, 
and the rule of law, but not--you cannot impose democracy. That 
is an oxymoron. What you can do is be supportive of various 
things in the countries that are going in that direction, but 
also make clear that it is not just American democracy. I think 
that is an important part.
    I also do think, and I think this more and more, is that we 
need to have a different relationship with the private sector, 
the NGOs and civil society clearly, and then educational 
institutions, but also businesses because, as I said earlier, 
the economies in those countries have to be assisted because 
people want to vote and eat. And there has to be a way that the 
private sector is brought in very early, not at the end, in 
order to figure out how to help improve those societies so that 
that economic disparity is--disappears and that there is an 
equal opportunity, and that it does not give the opportunity 
for authoritarians that are trying to do something else to 
exacerbate those divisions. But I think we need to look more 
specifically at how to improve the toolbox, sharpen it. It is 
not as if we do not have the tools. We just are not using them, 
I think, in a very clever way.
    The Chairman. Mm-hmm.
    Ambassador Dobriansky. I agree with everything that the 
Secretary has said. I would say, Senator, that in some 
democracies, you cannot just pick it up and transplant a model 
onto the soil of another country. It does not work. So what is 
crucial in terms of a strategic approach, you have to work with 
the grassroots. You have to be guided by what is happening on 
the ground, and every country is different in that regard. I 
think the Secretary is absolutely right in highlighting the 
private sector working with businesses, and I would only add 
one piece to that, and that is something that both NDI and IRI 
and the entire NED family has done. And that is that it is not 
just the United States reaching out, but actually we co-
partner. We do projects with Australians. Let us take Burma, in 
the case of Burma, working with the French and working with the 
Australians. That kind of partnership also, I think, adds 
strength to the advancement of democracy. It is not unilateral.
    Senator Rounds. I think sometimes one of the best toolbox--
or tools that we have in the toolbox is the relationship that 
we have with other allies when we join together to help. And I 
cannot tell whether I have any time left or not, but, Mr. 
Chairman, I will yield back if I do. Thank you.
    The Chairman. The senator is just right about on the 
button. Thank you very much. Senator Kaine has been waiting 
patiently and chairs the subcommittee on one of the most 
important parts of the world where this question is very 
prevalent, in the Western Hemisphere.
    Senator Kaine. Thank you, Mr. Chair, and what great 
witnesses. So just looking at the news this morning before I 
came, I saw two interesting announcements that exemplify the 
topic. The first was an announcement by the Quad--U.S., India, 
Australia, Japan--that they are going to join together to 
accelerate the development of vaccines in India to use in India 
and other countries in Southeast Asia, democracies in the 
region working together for something good. The second was an 
announcement by China and Russia that they are joining together 
to explore building a lunar space base together on the moon, so 
cooperation between authoritarian adversaries that have 
traditionally been pretty skeptical of each other. This is high 
stakes stuff right now.
    The question that I want to ask, Senator Romney asked why 
are we not being more successful, and, Madam Ambassador, you 
said complacency. I think there is another ``C'' word that I 
want to make sure we get right and that is ``consistency.'' You 
know, I think if you look at the history of democracy promotion 
initiatives of the United States, you often run into some 
consistency challenges. In this hemisphere, the U.S. helped 
topple the Guatemalan left-leaning democratically-elected 
government in 1954, Chilean left-leaning democratically-elected 
governor--government 1973. But there has been sort of a 
tradition of tolerating the strong men on the right side, 
dictators, under the ``he is an SOB, but our SOB,'' apocryphal 
language that has been used about Somoza or about Trujillo.
    Even more recently, the OAS that we want to strengthen to 
perform in the hemisphere did courageous work in calling out 
Venezuela, and we used that courageous work of the OAS to help 
assemble other nations that would pressure Venezuela. But when 
the OAS called out irregularities in the Honduran elections in 
2017 and said the election should be rerun, the United States 
just went ahead and recognized the president anyway. And that 
president is now the subject of a massive drug prosecution that 
is going on in New York as we speak for helping potentially 
foment drug importation into the United States.
    So I think sometimes when countries around the world look 
at us, they wonder are we being consistent about promoting 
democracy. A critique of the Cold War, for example, was 
President Truman announced the Truman Doctrine to protect 
democracies against authoritarians, but over time, it sort of 
devolved into check the Soviet Union, and we did not even mind 
authoritarians as long as they were not pro-Soviet Union. So 
the question is for both of you. How important is it, if we are 
going to promote democracy that we do it consistently and call 
out abuses, whether they are by left-leaning governments or 
right-wing governments?
    Secretary Albright. Senator, you have asked, I think, or 
made a point that is one of the most difficult ones. I teach, 
and I teach about decision making in the United States and 
foreign policy. And one of the hardest issues is consistency 
because we are inconsistent, and there are times that I have to 
admit that sometimes we have to be inconsistent because we 
cannot just cut off relations with a particular country, and so 
I do think this is the hardest question. I do think that what 
we need to do, however, is always call out the kinds of aspects 
that you have raised, which may not necessarily lead to us 
cutting off relationships with that country, but that we need 
to at least make clear to the people within that country that 
we think that what has happened is inconsistent with the kinds 
of policies of developing democracy and helping them.
    But I do think the hardest question is whether we have a 
consistent policy, and we do not, and I think in some cases we 
cannot, but I think that this all bears more examination 
because it is truly difficult. I have not believed that it is 
correct not to have diplomatic relations with a country because 
we need to know what is going on in that particular country for 
our own benefit so that we know what our policy should be.
    Senator Kaine. Madam Ambassador. Thank you.
    Ambassador Dobriansky. I will only add to your point, 
first, consistency does matter, and you are quite right in 
saying it, and I know this because I served as undersecretary. 
And then when I was in the Human Rights Bureau at the State 
Department, many countries would come forward and would say, 
well, that is not what the last Administration did or the 
Administration before that; that from Administration to 
Administration, there is a change of policy, a change of 
approach. So consistency does, in fact, matter.
    I do think that one thing we have been very consistent on, 
at least as I see it, is that these values matter. They matter. 
They are part of what we are about. When I look at the 
immigration challenge that is before us, China and Russia are 
not facing an immigration challenge. People want to come to 
this country whether we are consistent or inconsistent and for 
all the flaws that we may have because they know that we have 
institutions where they can have transparency, a recourse for 
action if wronged, and economic opportunity, and a better way 
of life. So I would put that as a silver lining in this mix, at 
least in terms of as we evolve, and democracy is not a linear 
path. But let me add one more, and that is I think also in this 
question, the public-private component also matters. It is not 
just about the U.S. Government, but it is also about the work 
and the involvement of our private sector and what our private 
sector does in keeping our feet to the fire. And being here 
in--certainly here in the Senate, that is reminding us what the 
American people are about.
    And I will end on this note. I have to say I am a strong 
proponent of the Quad, and I am really glad that you made that 
point. I think the Quad is a very important organization that 
has been key in terms of challenging China, and it is something 
that also matters in terms of democracy and proponent--the 
advancement of democratic values.
    Senator Kaine. Thank you.
    Ambassador Dobriansky. Thank you.
    Senator Kaine. Thank you, Mr. Chair. What a great hearing. 
I have a million more questions, but my time is up.
    The Chairman. I understand the feeling. Let me turn--I 
understand that Senator Hagerty is with us virtually.
    [No response.]
    The Chairman. Senator Hagerty?
    [No response.]
    The Chairman. I am sure some of these members may have had 
to go to another hearing. All right. I do not know of any other 
member on the Republican side who is on virtually. If there is, 
please speak up and we will recognize you.
    [No response.]
    The Chairman. And if not, then we will go to Senator 
Booker, who I understand is with us virtually.
    [No response.]
    The Chairman. Senator Booker?
    [No response.]
    The Chairman. If not, I will turn to Senator Schatz, who I 
understand is with us virtually.
    Senator Schatz. Thank you, Mr. Chairman, and thank you to 
both of our testifiers. I want to talk a little bit about our 
public diplomacy efforts. The U.S. Agency for Global Media does 
great work through programs like Voice of America and Radio 
Free Asia, but we know that more people today get their 
information online. And so I am wondering, Secretary Albright, 
how you are thinking about how we should do public diplomacy in 
the information age. I know that you have made reference to the 
fact that, you know, these are tools of democratization, but 
they are also tools for autocrats. And how should the State 
Department, in particular, think about modernizing the tools? 
Radio is important, but it is not the main communications 
channel for most people around the globe.
    Secretary Albright. Thank you, Senator Schatz. I think, 
again, this is a very difficult question because we have not 
totally mastered how we deal with the new information tools at 
all, frankly, and that there are differences in the way the law 
looks at whether we have any--what the control is over the big 
tech companies that actually not only produce, but send on 
information. We also have great differences with our allies in 
terms of the whole rule of privacy and a variety of different 
issues.
    I am going to--I have to tell you, I think--what I did was 
create a group of former foreign ministers, and we have just 
had a meeting on this virtually trying to sort out how--these 
are foreign ministers from all over the world--how, in fact, we 
are going to be dealing with this because this is not just an 
American problem. And I do think that it has an awful lot, 
again, to do--both Ambassador Dobriansky and I have talked 
about the private sector, but this is one place where there 
needs to be better cooperation and collaboration with the 
private sector and trying to develop some rules of the game.
    I have been very--my whole interest when I was a real 
academic was in the role of information and political change, 
and I cannot tell you how important Radio Free Europe and Voice 
of America were in the post-communist world, and how people got 
their information on public diplomacy itself. But the questions 
recently about how they are--the tools being used are right up 
there in terms of trying to figure out the rules of the game. 
And I do think this is somewhere where Congress, and the 
executive branch, and the private sector really need to look at 
what the elements are and how to develop some kind of 
acceptable rules of the game on it because it is like the Wild 
West at the moment.
    Senator Schatz. It sure is, and I would just offer the--to 
the extent that you have given us guidance to think through--
our public diplomacy and our projection of democratic values 
abroad depends on us setting an example. I think we need to be 
cautious when we consider changes to the law or an 
interpretation of the law as it relates to social media 
platforms, as satisfying as those might be, and think about how 
an authoritarian might use a certain fact pattern to shut down 
dissent. So I think it is--this stuff is really complex, and we 
need to understand some of our tech policy as a foreign policy 
question and not just for other committees.
    Secretary, I would like to ask you about the National 
Endowment for Democracy and its affiliated groups. Obviously, 
you are the leader in NDI. How does NDI actually interact with 
the State Department and, in particular, can you talk about the 
success that you have had in election monitoring work?
    Secretary Albright. Well, first of all, we are funded 
partially by the U.S. Government, and USAID, and various other 
parts. We have very good relationships with the State 
Department. But I really do think that one of the things that 
we have to think about is how we operate in terms of explaining 
more what we are doing to people in this country and abroad, 
and the extent to which we are able, through NDI, and IRI, and 
the Endowment, to kind of talk about the value systems and how 
we operate. I do think--it was--you know, elections are 
necessary, but not sufficient, but I really do think that when 
we have ways that we monitor the elections and are able to say 
whether they are right or wrong, when we also are able to have 
representatives from the State Department and, frankly, members 
of Congress go to the various countries to explain how our 
system works rather than having it be something that is just in 
a book, I think that relationship is very important. And I hope 
that when we can actually travel again more, that more members 
of Congress will go and visit these countries.
    And if I might just tag onto that, there are foreigners 
that come to the United States and the ambassadors, and I wish 
that more members of Congress would have real conversations in 
terms of the kinds of ways that our democracy works. I think it 
is very important to use all the branches of our Government.
    Senator Schatz. My final question for you, Secretary, and 
this is--I think Chris Coons is going to love this one--is 
about the size of our Foreign Service. We have been the largest 
Foreign Service on the planet. That has been a point of pride, 
not just as a statistical matter, but because it means that we 
are projecting our power all around the world. I am wondering 
if you could comment on the importance of funding the Foreign 
Service in terms of democracy promotion for the chairman of the 
Subcommittee on State and Foreign Ops.
    Secretary Albright. There is no question that the Foreign 
Service, the State Department, is essential in going out abroad 
and explaining what this country is about. The State 
Department, I was very proud to be asked to head it, very proud 
of the people who worked there, and I think that we do not 
recognize enough what a hard job it is. You know, people think 
of Foreign Service as people that get dressed up and go to 
receptions. It is one of the more difficult jobs in the 
Government. We now have to do training for our diplomats when 
they go abroad in terms of dealing with terrorist situations 
and difficulties, and we do not have enough people. And 
partially, what I find--I do believe in a strong military, but 
I have to say the difference in the budget of what the Pentagon 
gets, which is somewhere around $700 billion, in comparison to 
what the State Department, which is at any time somewhere 
between $40 and $50 billion, which not only has to pay the 
diplomats, but have buildings that they can operate in, the 
security, and then obviously the programs, which are the most 
important part. So our very important tool of talking about our 
values and being the eyes and ears of the U.S. Government is 
being underfunded.
    And so I am grateful that you asked that because I really 
felt when I was there, that we were not, in fact, understood 
well enough in terms of how we project America's national 
security issues and values.
    The Chairman. Thank you.
    Senator Schatz. Thank you.
    The Chairman. Thank you. I think that would be classified 
as a leading question if you were in a courtroom, but, in any 
event, Senator Coons is taking copious notes. I understand 
Senator Van Hollen is with us virtually.
    [No response.]
    The Chairman. Senator Van Hollen.
    Senator Van Hollen. I want to thank both our terrific 
witnesses for being with us this morning and really pick up on 
the threads of some of the other questions that have been made. 
But the Biden administration has been talking more and more 
about looking at the frame of techno-democracies versus techno-
autocracies, really putting China front and center, a country, 
which, of course, through its Belt and Road Initiative and 
other initiatives, is seeking not only to export its 
technology, whether it be Huawei or other forms of cutting-edge 
technology, but also, in the process, export its model, and 
including the surveillance state, which may be very attractive 
to authoritarian governments that want to have both control 
over their citizens and also prevent active dissent.
    But my question really gets to what Senator Kaine was 
getting at. As we--as we pursue that model, and I am interested 
how useful you think that overall model is, how do we also look 
at consistency across the board. Secretary Albright, you 
mentioned Hungary. If you look at Turkey, they have also, for 
example, shut down access to the internet and social media over 
time. Right now in India, the Modi Government permanently 
blocked over 500 accounts of people who were dissenting against 
the Modi Government's handling of the farmer protests and 
threatened to lock up Twitter and Facebook employees that did 
not enforce this decision. In fact, Twitter, as a result, 
blocked 500 accounts.
    So if you could just talk about how we--how we deal with 
that in the context of this overall framing because I could not 
agree more with comment that the Quad, for example, is a really 
important entity, and we need to pursue that. So how do we 
pursue those interests, and, at the same time, try and apply 
some consistency to those issues, like freedom of the internet 
and dealing with governments that are using their powers to 
clamp down on dissent by shutting down dissent on the internet?
    Secretary Albright. I really do want to answer that, but I 
do not want to keep doing the kind of thing that we are 
thinking about as criticizing what happened in the past. What 
has happened here, we did not pay attention to what was going 
on, there is no question, and kind of dismissed the fact of 
what the Chinese were doing. And we have been absent, and the 
Chinese are on a march to prove their importance and are taking 
up the vacuum that we created. And we need to understand that 
without just going back, but we do need to know that we have 
not been consistent and we have not been present. I also think 
that what needs to happen is--by the way, what I do when I 
teach, I say foreign policy is just trying to get some country 
to do what you want, and so what are the tools? And my course 
is called the National Security Toolbox, and there are not a 
lot of tools. And what we do mostly is turn to the sanctions 
tool because it is one that you can have some immediate effect 
with if you find the people that are doing the various things 
that you disagree with. But it has to be watched very 
carefully, and it has to be used in a way that is more precise, 
I think, in the targeted tools, and I do think we need to do 
that.
    The Chinese are roaming freely because we have not been 
around, and I think that we need to also develop a policy, to 
go back on something, which is in terms of including the 
private sector in terms of helping the countries that need help 
economically, not just through aid, but through the kinds of 
things that the private sector can do, and we need to see that 
there is space for us to operate in. I am troubled by my own 
answer on the consistency because I would like to see 
consistency, but it is hard, and I think that we need to 
recognize that in some cases it is not doable. But I do think 
also that we need to work with our partners, whether it is the 
Quad or various other alliance structures.
    I note that, for instance, Secretary Blinken is going to go 
to talk to the Japanese and the South Koreans about the things 
that can be done more together, that the alliance structure, 
these are alliances of democracies, and, therefore, we should 
be able to figure out how we can deal with some of the issues 
that we have been talking about that do have to do with 
consistency and do have to do with the fact that we have been 
absent.
    The Chairman. Thank you. Ambassador Dobriansky, since this 
is the last question, we will let you also share your views.
    Ambassador Dobriansky. All right. Thank you. Senator, I 
think you raise important points. Consistency, I think we have 
established, is a challenge. It is a challenge for all the 
obvious reasons. But let me--let me add here, China is 
definitively waging a disinformation campaign. There are cyber 
intrusions, as we know, and also with their substantial 
economic, financial, and technological leverage, one of the 
biggest challenges is that other countries that engage 
massively in trade and finance with China are also constrained. 
They are very constrained in their actions. So it is not only 
the issue of our trying to engage, combat others, counter 
influence operations and social media, and expose them for what 
they are, but also there is the challenge of the fact that many 
countries are engaged by the nature of their relationships, and 
then they are not willing to actually step forward and join us 
in this battle. So that is something that I think is even, if I 
could say, not only the issue of consistency, but we have a 
real challenge here to look at, whatever continent it is.
    I think back, and I will end on this note. Europe went 
ahead in December with the European Investment Agreement with 
China, and this was even before the Biden administration came 
in and said, let us collaborate on our approach to China. That 
already sets a type of foundation that is very hard to undo or 
even work around, so consistency matters. Complacency matters. 
But also, I think that we need to really look at our toolkit 
technologically. The issue of digitalization of 
authoritarianism is front and center for sure. Thank you.
    The Chairman. Thank you.
    Senator Van Hollen. Thank you both.
    The Chairman. Thank you. Seeing no other member present, 
unless there is some member who is with us virtually who we 
have not called upon, and if there is, please speak up.
    [No response.]
    The Chairman. Hearing none, with the committee's thanks to 
both of you, Madam Secretary, Madam Ambassador, thank you so 
much for your insights. We appreciate it. This is a critical 
question, especially at the beginning of a new Administration, 
but certainly for the Senate to consider in its deliberations, 
and you have greatly helped us along the way. Thank you very 
much.
    Secretary Albright. Thank you all. Thank you very much.
    Ambassador Dobriansky. Thank you.
    The Chairman. We have a second panel, which I now want to 
introduce and bring up.
    Let me first welcome Dr. Peter Biar Ajak. Dr. Ajak is a 
civil society leader, political dissident, and scholar from 
South Sudan. An outspoken advocate for free elections, Dr. Ajak 
was convicted of disturbing the peace and jailed for 18 months 
in a South Sudanese prison. Let me welcome Dr. Ajak. I would 
next like to introduce Mr. Nathan Law. In 2017, at the age of 
23, Mr. Law was elected to Hong Kong's Legislative Council and 
became the youngest legislative counselor in history, yet his 
election was overturned in July of 2017 following Beijing's 
constitutional reinterpretation. So let me welcome Mr. Law. And 
finally, let me welcome Wai Hnin Pwint Thon. She is a Burmese 
human rights defender working with a non-governmental 
organization, Burma Campaign UK and Advance Myanmar. Welcome, 
Wai Hnin.
    With that, your full statements will be included in the 
record. We ask you to summarize them in about 5 minutes, and 
let me start with Dr. Ajak.

 STATEMENT OF PETER BIAR AJAK, PH.D., REAGAN-FASCELL DEMOCRACY 
    FELLOW, NATIONAL ENDOWMENT FOR DEMOCRACY, WASHINGTON, DC

    Dr. Ajak. Chairman Menendez, Ranking Member Risch, members 
of the committee, I am honored to testify today on a topic so 
close to my heart.
    For 18 months, I endured a brutal illegal detention at the 
Blue House Prison operated by South Sudan National Security 
Service. My crime was criticizing President Salva Kiir's failed 
leadership of South Sudan, which has turned the promise of our 
hard-won independence into a decade-long nightmare. I survived 
this imprisonment and Kiir's later attempt to either kill or 
abduct me from Kenya because of the support of many human right 
defenders, including several members of this committee. I am 
grateful to you all and the U.S. Government for saving my life 
and that of my family.
    When South Sudan gained independence in 2011, Kiir was 
appointed--not elected--appointed president and charged with 
building institutions to allow for elections in 2015. But in 
2013, he and former Vice President Riek Machar plunged our new 
nation into a civil war. Kiir used the conflict to defer 
elections from 2015 to 2018, and again to 2021. Although the 
current peace agreement requires elections to be held by March 
2022, he is already proposing 2023 and beyond.
    Meanwhile, he has built a repressive security state in the 
form of the National Security Service run by General Akol Koor 
Kuc, who personally oversees the planning and the commission of 
gross human right violations through Special Forces in his 
office. A four-person task force in Kuc's office identifies 
targets for extrajudicial killings, enforced disappearance, and 
arbitrary arrests. Kuc also manages numerous corrupt schemes, 
illegally extracting millions of dollars through public sector 
corruption.
    Kiir's failure of leadership has been devastating. The 
poverty rate, which stood at 50 percent at independence, is now 
at 82 percent. We ranked dead last in the 2020 Social Progress 
Index, tied for the last place with Somalia in the 2020 
Corruption Perceptions Index, and we scored only 2 out of 100 
in the 2021 Freedom House Global Freedom Score. Our people are 
living in unrelenting horror.
    The United States needs to send a clear message to Kiir 
that his repression of our people will no longer be tolerated, 
nor any further delay of elections. You should sanction 
perpetrators of gross human right violations, like Kuc, while 
urging the African Union to urgently set up the Hybrid Court on 
South Sudan to end impunity. If Kiir does not hold election on 
time, his already illegitimate regime will have expired. Since 
he was never elected by our people, this would necessitate a 
new political paradigm to ensure a successful transition to 
democracy. Despite severe oppression, our people made it clear 
in the recently-concluded National Dialogue that Kiir and 
Machar must exit the political scene. I hope the United States, 
this committee, will stand with our people.
    The South Sudan case highlight five challenges to democracy 
not only in the Horn of Africa, but on the entire continent and 
globally. One, restriction of press freedom by dictators who 
know that information is power and who fear informed citizenry, 
and act to keep our people ignorant of their misery. Two, 
severe repression of political opposition and activists by 
tyrants who fear losing power. Lacking the ability to compete 
in free exchange of ideas, they resort to violence, 
intimidation, and harassment. Through Department of State, the 
U.S. should publicly identify and monitor the cases of 
bellwether activists and act swiftly and decisively when they 
face repression. If we are killed or detained with impunity, 
then who will fight for freedom in our countries?
    Three, entrenched leaders who abuse term limit whom the 
U.S. must confront to reverse course. Four, Chinese promotion 
of authoritarianism through anti-democratic tactics, financial 
coercion, and physical intimidation. The U.S. need to counter 
China by supporting exchange programs and expanding access to 
U.S. institutions of knowledge. The U.S. also need to encourage 
its private sector to expand investment in Africa where Chinese 
capital is not only entrenching authoritarianism, but weakening 
instruments of accountability. Finally, sham elections that 
damper faith in democracy, making mockery of the sacred 
instrument through which the sovereign will of the people is 
expressed.
    In closing, Mr. Chairman, Ranking Member, the human desire 
for freedom and opportunity gives me hope that, with right 
policies and resolve, not only will dictatorship fail, but 
freedom will thrive. Thank you very much for the invitation.
    [The prepared statement of Dr. Ajak follows:]

                   Prepared Statement of Dr. Ajak \1\

    Chairman Menendez, Ranking Member Risch, and Members of the 
Committee: I am greatly honored to testify today. This topic is close 
to my heart. For 18 months, I endured a brutal, illegal detention at 
the notorious ``Blue House'' prison, operated by South Sudan's National 
Security Service (NSS). My crime was criticizing President Salva Kiir 
and his failed leadership of South Sudan, which has turned the promise 
of our hard-won independence into a decade-long horror. I survived this 
imprisonment and Kiir's later attempt to either kill or abduct me from 
Nairobi, Kenya because of the support of many defenders of human rights 
around the world, including several members of the U.S. Senate and the 
House of Representatives (many of whom are seated on this Committee). I 
am extremely grateful to each and every one of you and the United 
States' Government for speaking out for me when my voice was silenced, 
and for acting quickly to save my life and that of my family.
    It is only natural that I begin my testimony with the stalled 
democratic transition in South Sudan. We gained our independence on 
July 9, 2011 after our people voted overwhelmingly for separation in a 
referendum made possible by the Comprehensive Peace Agreement of 2005, 
which the United States brokered. At independence, Kiir assumed the 
presidency by appointment, charged with building democratic 
institutions that would allow for national elections to be held in 
2015. But in December 2013, he and his former vice president Riek 
Machar (now the First Vice President) plunged our new nation into a 
civil war. Kiir used the conflict to defer the scheduled elections from 
2015 to 2018, and again to 2021. And although the current peace 
agreement requires elections be held by March 2022, Kiir is already 
proposing 2023 and beyond.
    In the meantime, he has built a repressive security state in the 
form of the NSS whose powers are concentrated in the hands of his 
kinsman, Gen. Akol Koor Kuc, who personally oversees the planning and 
the commission of gross human rights violations through Special Forces 
headquartered in his office. A four-person task force housed inside 
Kuc's office identifies targets for extrajudicial killing, enforced 
disappearance, and arbitrary arrest. Once the targets are approved by 
Kuc, the Special Forces carry out the acts. Kuc has attended many 
executions and personally pulled the trigger on several occasions. As 
we speak, there are over 1,000 detained in secret NSS detention 
facilities across the country. Although less widely reported. Kuc 
oversees and manages numerous corrupt schemes illegally extracting 
millions of dollars from oil, banking, gold, timber, charcoal, gum 
Arabic, aviation, and other public sector corruption.
    Kiir's failed leadership of South Sudan has been costly to our 
people. As reported by the World Bank, the national poverty rate, which 
stood at about half of the population at independence is now at 82 
percent; \2\ our country ranked dead last in the 2020 Social Progress 
Index; \3\ it tied for the last place with Somalia in the 2020 
Corruption Perception Index; \4\ and it scored only 2 out of 100 in the 
2021 Freedom House's Global Freedom Score.\5\ Although the oil is 
flowing, our people cannot tell where the money goes. Our diplomats 
have gone for nearly 2 years without salaries. Civil servants have not 
been paid for months. Even the country's official army has gone for 
months without salaries. It's only the brutal NSS and the Presidential 
Guard, who personally protect Kiir, that get salaries on a regular 
basis. Simultaneously, the inflation is high and the currency has loss 
value as the Government monetizes the deficit.
    Indeed, it's the people of South Sudan who bear the brunt of Kiir's 
mismanagement of their country. Three million people remain in refugee 
camps in Kenya, Uganda, Ethiopia, Sudan, the DRC, and the Central 
African Republic. More than seven million people are in urgent need of 
humanitarian assistance as the confluence of conflict, floods, and 
macroeconomic crises devastate the population.\6\ Last year, we saw one 
of the largest discharges of water from Lake Victoria into the Nile, 
resulting in most of my home state of Jonglei being submerged in water. 
This led to increased displacement, forcing many families to move to 
Mangalla where they remain in urgent need of humanitarian assistance.
    To revive the stalled democratic transition in South Sudan and 
restore hope to our people, the United States, which midwifed the birth 
of South Sudan and invested over 15 billion dollars since our 
independence, needs to send a clear message to Kiir that his repression 
of South Sudan's people will not be tolerated anymore and that any 
further delay of elections is unacceptable. Kiir and his partner in 
crime, Riek Machar, have imposed themselves on the people of South 
Sudan for too long. Despite the severe repression in the country, our 
people made this unequivocally clear in the recently concluded South 
Sudan National Dialogue, demanding that Kiir and Machar urgently find 
an exit route from the political scene. The United States, working 
together with the African Union, the United Nations, and others must 
demand that Kiir holds election by March 2022 since our people can no 
longer endure his awful rule.
    Holding elections would require specific tasks to be completed such 
as the promulgation of a new constitution, the merger of various 
militias into a national army, the appointment of new Elections 
Commissioners, the conducting of the census, and the updating of the 
voter registry. However, given Kiir's reluctance to implement the peace 
deal, it is unlikely that any of these enormous tasks would be 
accomplished on time. This means that March 2022 will likely come with 
elections nowhere in sight, which is Kiir's intention since he is not 
interested in giving up power. If Kiir does not make progress on these 
vital areas, his already illegitimate regime will have expired. This 
would be the appropriate moment to consider Liberian model where that 
country's former dictator, Charles Taylor, was forced to step down to 
allow a genuine transitional government to shepherd the country towards 
the conduct of democratic elections.
    Two urgent actions will need to be taken to make it clear to Kiir 
that he must organize credible elections on time. First, the U.S., 
which holds the pen on the Security Council's establishment and ongoing 
reauthorization of the U.N. Mission in South Sudan (UNMISS), should 
secure new language in the next reauthorization resolution, which must 
be adopted by March 15, 2021, emphasizing that South Sudan must hold 
elections by March 13, 2022, as required by the Agreement, or be 
prepared to face actions that shall be determined by the Security 
Council. It should also add to the mandate of UNMISS and tasks it must 
undertake by all necessary means that it should support implementation 
of key activities required to enable elections to occur on time. 
Second, Kiir has claimed to have amended the 2018 Agreement to postpone 
elections until 2023 but this change has not been endorsed by the South 
Sudan's Parliament, which must by two-thirds majority approve any 
changes. The parliament has not even been established. If the Security 
Council does not explicitly reject this illegal move and insist that 
all parties must comply fully with the 2018 Peace Agreement, then it 
will have acquiesced to Kiir's bypassing the Agreement to push off 
elections for a year and set a dangerous precedent. Failing to hold him 
accountable next week will enable Kiir to extend the tenure of his 
already illegitimate regime beyond what is specified in the Agreement. 
This could very well spark large-scale violence with devastating 
consequences for our people and the Horn of Africa.
    Finally, the U.S. should continue to hold individuals responsible 
for gross human rights violations and those thwarting the peace process 
accountable through imposition of targeted sanctions under South Sudan 
sanctions program, established by Executive Order 13664 and under the 
Global Magnitsky Act. These individuals should include the NSS 
Director-General, Gen. Kuc and his top cronies. The U.S. should also 
push the African Union to urgently set up the Hybrid Court on South 
Sudan to end the culture of impunity. Meanwhile the U.S. should 
continue to support civil society groups, church groups, community-
based organizations, and women and youth coalitions that are working 
hard to build consensus among our people.
    The stalled democratic transition in South Sudan highlights the 
challenges to democracy not only in our country, but also in the Horn, 
and the entire continent of Africa. Five key challenges inherent in 
South Sudan are omnipresent in the Horn of Africa and beyond, 
including:

    1. Restriction of press freedom: The assault on journalists and 
press freedoms has become a global problem. The year 2020 set the 
record for the number of journalists detained, while the number of 
those murdered in the course of their work doubled from the previous 
year.\7\ The entire Horn of Africa with the exception of Kenya has 
consistently performed poorly in the treatment of journalists. While 
South Sudan has habitually been the absolute worst, recently, Uganda 
and Ethiopia have seen shocking levels of repression of press freedoms. 
Even before the ongoing conflict in Tigray started, Prime Minister 
Abiy's record on the freedom of press was dismal. And the recent 
elections in Uganda have revealed to the world the extent to which 
President Museveni is willing to go to suppress his people in order to 
maintain power. Further down south, press freedoms have suffered since 
President Magufuli came to power in Tanzania. In Zimbabwe, the 
situation is worse than when Robert Mugabe was still in power with many 
journalists being arbitrarily detained, tortured, or killed.
    The authoritarian leaders know that information is power and if 
people are informed, they will not accept the awful conditions to which 
they are subjected to live. Hence, by restricting press freedoms, the 
African dictators act to keep our people in the dark--to keep them 
ignorant of their misery. While social media has allowed activists in 
some cases to evade surveillance, authoritarian leaders have learned 
how to create disruptions through propaganda, disinformation and 
shutdown of the internet among others. Recently, China and Russia, 
working in concert with many African dictators have made this situation 
worst.
    Yet, access to information is the bedrock of democratic 
institutions. While the U.S. invests heavily in access to information 
around the world, including in South Sudan, it is time to bolster these 
efforts. Those who impede the work of journalist must be held 
accountable and U.S. must increase its investment in free media. 
Moreover, the U.S. will also need to apply its superior technology and 
innovation to counter Chinese and Russian disinformation efforts.

    2. Severe repression of political opposition, human rights 
defenders, and activists: Because authoritarian leaders are ruled by 
fear of losing power and control, they feel threatened by any hint of 
opposition. Lacking the ability to compete in free exchange of ideas, 
they resort to violence, intimidation, and harassment. My experience in 
South Sudan highlights this clearly, as do recent farcical elections in 
Uganda. Through state coercive apparatus, they detain, torture, or kill 
perceived opposition, forcing many to flee for their lives. While the 
U.S. often speaks out when these tragic events occur and imposes 
punitive actions (including sanctions under the Global Magnitsky Act), 
it can bolster these efforts. Through Department of State, the U.S. 
should publicly identify and monitor the cases of bellwether human 
rights defenders and democracy activists and act swiftly and decisively 
when they face repression. If we are killed or detained with impunity, 
then who would be left to push for democratic reforms in our countries? 
Therefore, developing measures to monitor the treatment of such 
activists around the world will go a long way towards creating 
political spaces that nurtures local movements and gives them the 
resilience they need to prosper.
    Moreover, the U.S. should incorporate the protection of fundamental 
freedoms, including the treatment of political opposition, human rights 
defenders, and democracy activists into its broader foreign policy 
objectives. Instead of seeing promotion of democracy and stability as 
competing priorities, it can formulate a comprehensive framework that 
brings these two together since they are truly entwined. Such a 
framework can serve as the foundation of any defense, economic, or 
trade agreement with the United States and its allies. In addition, the 
U.S. should increase support to civil society and democratic forces by 
enhancing democratic civic education and the capacity of women and 
youth to contribute to policy issues in their countries.

    3. Entrenched leaders who abuse Term Limits: Many leaders in 
Africa, including those who came to power on the promise of expanding 
democracy in their countries, have increasingly become entrenched.\8\ 
Once they consolidate power, they wish to remain there forever by 
removing Terms Limit. While Museveni did this long ago (removing both 
Terms and Age Limits), the practice has now become commonplace as we 
witnessed last year in Ivory Coast and Guinea. In the Horn of Africa, 
Kenya is the only country in which Terms Limit still means something. 
Since Parliament and Judiciary are often weak in many African 
countries, Terms Limit play a critical role in preventing power 
becoming concentrated in the hands of one person. The U.S. will need to 
bring this topic back on the top of agenda in dealing with African 
countries, deploying necessary inducements and disincentives to obtain 
the desired outcome.
    4. Chinese promotion of authoritarianism: The Chinese Communist 
Party's (CCP) promotion of authoritarianism is a great concern in the 
Horn, the continent of Africa, and around the world. The CCP uses anti-
democratic tactics, financial coercion, and physical intimidation to 
secure support for authoritarian leaders who are usually in cahoots 
with them. These efforts result in increased corruption, environmental 
degradation, and displacement of people. The Chinese investments in 
South Sudan, for instance, have only created misery in the form of 
severe oil pollution and grand corruption, where South Sudanese oil is 
stolen by their leaders in coordination with Chinese oil companies.\9\ 
In recent years, China has become emboldened in promoting its Party-
State model as a viable (even desirable) alternative to liberal 
democracy. It has invested extensively in exchange programs, offering 
scholarships to students, youth-wing of political parties, and African 
security forces to study and adopt its model. It has built cultural 
exchange centers all around the world, while deploying its companies to 
bolster corrupt authoritarian leaders.
    The United States needs to take seriously the Chinese ambition for 
global dominance, aimed at remodeling the world according to its 
values. Rather than seeking to impose a binary choice on Africans 
between the United States and China, this requires intensified support 
to democracy efforts and democracy activists who are fighting to defend 
values of freedom in their own countries. Doing so will require 
augmented support to anti-corruption efforts, exchange programs such as 
the Reagan-Fascell Democracy Fellowship, YALI, the Peace Corps, and 
many others. Looking long-term, the United States will need to provide 
scholarships and open up its institutions of knowledge. Moreover, the 
United States will need to encourage American private sector to expand 
its investments overseas, particularly in Africa, where Chinese capital 
is only entrenching authoritarianism and weakening instruments of 
accountability. Notwithstanding the risk averseness of American 
companies, the U.S. Government can create mechanisms to make such risks 
manageable for companies, encouraging them to expand responsible 
capitalism around the abroad. Relying on humanitarian and developmental 
aid alone will be too little to counter the increasing Chinese 
influence.

    5. Sham elections that damper faith in democracy: While we in South 
Sudan have never had the privilege of choosing our own leaders, many 
Africa countries hold elections on a regular basis. However, these 
important processes of democracy have recently become farcical events. 
In the recently concluded elections in Uganda, Museveni managed to 
prevent independent monitoring of elections. This was also the case for 
last year's elections in Tanzania, Guinea, and Ivory Coast. In 2018, 
Emerson Managwagwa stole elections in Zimbabwe with impunity.
    Elections are too important to be abused in such ways. They are the 
instruments through which the sovereign will of the people is 
expressed. While the U.S. Government often releases statements 
condemning misconduct, no meaningful actions usually follow such words. 
This will need to change. Moreover, the U.S. will need to increased 
funding for elections monitoring throughout the world. And this funding 
should not only just be for the voting, but for the entire process. 
Elections, after all, are not events, but crucial processes through 
which citizens renews the bonds of contracts that knit them together.
    This year, 13 African states will hold elections, some of which 
have already occurred. It's important these elections are held with 
integrity. In addition, ensuring that the upcoming elections in South 
Sudan, which must be held by March 2022, are held with integrity will 
be crucial. The stalled democratic transition in South Sudan and Kiir's 
horrific violations of human rights with impunity has set an awful tone 
in the region. These abuses are now being replicated nearly everywhere 
in the region with the exception of Kenya and Sudan. By acting 
decisively to ensure that these elections are held on time and that a 
new political paradigm emerges in South Sudan, the United States will 
be sending an unequivocal message of hope to our citizens in South 
Sudan and the Horn that a new era has dawned. This requires important 
investments be made now to lay the foundation for democratic transition 
in South Sudan.
    Chairman Menendez, Ranking Member Risch, Members of the Committee: 
My presence before you today is a testament to the courage and the 
resilience of many democracy activists around the world. It also speaks 
to the critical importance of various mechanisms the U.S. Government 
already has in place to support the work of civil society, human rights 
defenders, and democracy activists. Indeed, while I am concerned about 
the growing threat of authoritarianism, I am also cognizant of the 
power of human desire for freedom and opportunity. And this gives me 
hope that with right measures and resolve, not only will dictatorship 
failed, but freedom will thrive. Thank you for the opportunity to speak 
to this distinguished audience today!

----------------
Notes

    \1\ The views expressed in this document are solely those of the 
author, and do not represent the views of the National Endowment for 
Democracy or any other organization.
    \2\ The World Bank, ``The World Bank in South Sudan,'' https://
www.worldbank.org/en/country/southsudan/
overview#::text=About%2082%25%20of%20the%20population,parity%20(PPP)
%20poverty%20line.
    \3\ 2020 Social Progress Index Ranking, https://
www.socialprogress.org/index/global/results
    \4\ Corruption Perception Index 2020, https://
images.transparencycdn.org/images/CPI2020_Report_EN_0802-WEB-1_2021-02-
08-103053.pdf
    \5\ Freedom House, ``Freedom in the World 2021: Democracy under 
siege,'' https://freedomhouse.org/sites/default/files/2021-02/
FIW2021_World_02252021_FINAL-web-upload.pdf
    \6\ Care, ``South Sudan Humanitarian Crisis,'' https://
www.care.org/our-work/disaster-response/emergencies/south-sudan-
humanitarian-crisis/#::text=While%20the%20peace%20process%20
between,of%20some%20form%20of%20humanitarian
    \7\ Committee for Protection of Journalist, ``Murders of 
Journalists more than doubled worldwide,'' https://cpj.org/reports/
2020/12/murders-journalists-more-than-doubled-killed/
    \8\ https://africacenter.org/spotlight/erosion-term-limits-africa-
reflects-worrying-trend/
    \9\ Yang Janli and Peter Biar Ajak, ``How Chinese Corruption 
Spreads Misery Abroad,'' The American Interest, https://www.the-
american-interest.com/2020/09/22/how-chinese-corruption-spreads-misery-
abroad/

    The Chairman. Thank you very much, Doctor Ajak. Mr. Law?
    [No response.]
    The Chairman. Mr. Law, are you with us virtually?
    [No response.]
    The Chairman. Okay. While we figure that out, let me turn 
to Ms. Wai Hnin. Ms. Wai Hnin?

  STATEMENT OF WAI HNIN PWINT THON, CAMPAIGNS OFFICER, BURMA 
                          CAMPAIGN, UK

    Ms. Pwint Thon. Thank you very much for this opportunity.
    So when the head of the Burmese military, Min Aung Hlaing, 
staged the coup, he knew there was a price to pay, but, of 
course, he is expecting that he can get away with it, so it is 
very important for us to prove him wrong. In Burma, people are 
very brave and they are proving to Min Aung Hlaing that he is 
wrong. When the military divided and when they thought to 
arrest NLD leaders and other activists like my dad, they 
thought they could stop protests, but we have seen the biggest 
protests in more than 30 years. People are holding signs 
calling for democracy, and these signs are written in English 
because they want the world to help, but peaceful protests have 
been met with increased violence by the military. People are 
dying on the street every day, and children have been shot in 
the head. The military is using every tool they have to silence 
people from speaking out.
    More than 60 people now have been killed for peacefully 
protesting, and we now have more than 2,000 people in prison 
since the coup started. And we do not know how many people have 
disappeared, and we have not been told where they are being 
detained or their condition, and they do not have any access to 
lawyers.
    Today is my father's birthday. Nearly half my life, we have 
not been able to celebrate his birthday together because he is 
in prison for speaking out, and my first memory of seeing my 
Dad is through iron bars in Insein Prison. It is still very 
hard for me, although I am used to it, and at the same time, I 
am heartbroken and angry that so many children will now have to 
go through what I went through, growing up without a parent and 
not knowing when they will see the parents again. And this has 
to stop.
    It is not just in the cities and against peaceful 
protesters that the military is attacking civilians. In Kachin 
State, the military is firing mortar bombs into villages, and 
more than 5,000 villagers are already hiding in the jungle. We 
see military trucks and soldiers on the streets of Yangon and 
other cities, but they never left the streets and many ethnic 
states. In the past 10 years of reform process, human rights 
violations against ethnic minorities have increased. The 
military saw sanctions relax, even as they would continue 
carrying on human rights violations against ethnic minorities. 
This created a sense of impunity for the military. They even 
thought they could get away with the genocide against the 
Rohingya, and so far they have. And, of course, they can--they 
think they can get away with staging a coup now because they 
were allowed to get away with genocide.
    People in Burma want the coup reversed, and they want their 
democratically-elected government to be reinstated, but they do 
not want to go back under the military-drafted 2008 
constitution. In the U.S., you would not accept a situation 
where your chair of the Joint Chiefs of Staff chose three 
cabinet members. You would not accept him choosing 25 percent 
of the members of Congress. You would not accept it, and we 
cannot either. People are risking their lives asking for 
federal democracy, and the military was wrong to underestimate 
the courage and resistance by the people of Burma, but so far, 
Myanmar has not been wrong to think the international response 
would be weak. My country is now controlled by the battle-
hardened soldiers. They are not diplomats. Statements alone are 
not enough. Of course we are realistic and we know that 
international action alone cannot free our country. We will win 
our own freedom, but international action has an important role 
to play.
    I want to take this moment to thank the U.S. for being the 
first to act against the coup, freezing government reserves and 
sanctioning three military companies. You have been in the 
forefront of supporting human rights and democracy in my 
country, and I am really grateful for that. There is much more 
U.S. can and must do. You must target the economic interests of 
all the military and impose sanctions on military companies, 
including financial services and insurance. Now that the 
military control the government, revenues to them from oil and 
gas need to be stopped, along with trade in timber and gems 
from Burma. Please work with allies like the UK and EU to 
coordinate these targeted sanctions. And the U.S. has arms 
embargo, but most countries in the world do not. Please work 
with allies to build a global coalition of countries imposing 
arms embargo. In my written statement, I have listed more steps 
that can be taken. There are many measures that U.S. can take, 
diplomatic, economic, humanitarian, and legal.
    In my country people are going out on the street every 
single day, protesting, knowing that they could be shot 
anytime, they could be arrested any time, and they could be 
beaten anytime. They are risking their lives, and they are 
doing everything they can. And we are asking, please, every 
tool you have and everything you can to help us. Thank you.
    [The prepared statement of Ms. Pwint Thon follows:]

                  Prepared Statement of Ms. Pwint Thon

    Thank you members of this committee for offering me an opportunity 
to testify.
    When Min Aung Hlaing, the head of the Burmese military, held the 
coup on 1st February, he knew there would be a price to pay. He 
calculated the price would not be too high and that it would be a price 
worth paying.
    It is essential that we prove his calculations wrong. We have to 
make the price higher than he expected.
    In Burma the people have already done that. The military thought 
that by arresting NLD leaders, and leaders of the uprising in 1988, 
including my father, that they could stop protests.
    Instead, there have been the biggest protests in more than 30 
years. There is a mass civil disobedience movement, general strikes, 
and boycotts of military companies. There is amazing creativity as 
people find different ways to resist military rule. Communities are 
coming together to support each other.
    But peaceful protest has been met by increasing violence by the 
military. People are dying on the streets. Children have been shot in 
the head after joining protests for the first time in their lives.
    They are holding signs calling for democracy. And the signs are in 
English because they want the world to help.
    More than 60 people have been killed. All unarmed civilians. At 
least two of those killed were tortured to death after being arrested.
    The same soldiers who have been attacking and killing civilians in 
Shan State, Kachin State and Rakhine State, the same soldiers who 
committed genocide against the Rohingya, are now on the streets of the 
cities in central Burma.
    They beat children just for watching protests, they loot and they 
kill. They are there to instill fear and terror and make people too 
scared to resist military dictatorship.
    Since the coup, around 2,000 people have been arrested or are 
facing charges. The figure is likely to be much higher as we don't know 
how many are being arrested in more remote areas of ethnic states. We 
don't know how many people have simply disappeared.
    For the families of those like my father who have been kept in 
detention, we also don't know what has happened to them. We have not 
been told where they are. They have not been allowed to see lawyers. We 
don't know if my father and other prisoners with serious medical 
conditions are getting the medication which they need to keep them 
alive.
    For almost half my life my father had been in prison for supporting 
human rights. Today is his birthday and it's the 14th time we are 
unable to celebrate together because he is in jail. It is very hard for 
me even though I am used to it. I grew up with my father in jail for 
his political activities. My first memory of my father is seeing him 
through the bars of a jail cell.
    I am heartbroken and angry at the same time that so many children 
will now have to go through what I went through, growing up without a 
parent, not knowing if or when they will ever be freed. This has to 
stop. Decade after decade, generation after generation. It never stops.
    Even under Aung San Suu Kyi's Government there were more than 200 
political prisoners. 200 families torn apart because the Government and 
military would not tolerate people asking for their human rights and 
full democracy.
    The United States is right to demand the release of Aung San Suu 
Kyi, the President and arrested MPs. But it is equally important to 
free the teenager in Myitkyina, the mother in Lashio, the shopkeeper in 
Myawaddy, and the student in Loikaw.
    The hundreds of people whose names are not known, who live in 
places most people have never heard of, but who risked death and jail 
to try to free their country. They are true heroes. We cannot again 
have a situation where the pressure is relaxed when the high profile 
political prisoners are freed. Never again should any political 
prisoner be left behind in Burma's jails.
    At the same time as locking up those calling for human rights and 
democracy, faced with overwhelming public rejection of his 
justification for the coup, Min Aung Hlaing has freed well known racist 
nationalist prisoners from jail. People who incited, organized or took 
part in ethnic cleansing and genocide against the Rohingya and who 
incited and organized anti-Muslim riots.
    There is a very real danger Min Aung Hlaing will play the 
nationalist anti-Rohingya and anti-Muslim card to try to deflect 
attention from the coup. Already we have seen Muslim political leaders 
targeted and killed. There are millions of Muslims in Burma and more 
than half a million Rohingya left in Rakhine State. Since 2012 we have 
repeatedly seen how the military tries to whip up anti-Muslim and anti-
Rohingya sentiment to try to win public support. There is a very real 
danger the military will do the same again now.
    It is not just in the cities and against peaceful protesters that 
the military is attacking civilians. In Karen State, where there is 
supposed to be a ceasefire, the Burmese military have been firing 
mortar bombs into villages and fields and threatening to use villagers 
as slave labor to carry their equipment. New soldiers and convoys of 
trucks of equipment are arriving. Already more than 5,000 villagers are 
now hiding in the jungle.
    The armored trucks and soldiers on the streets of cities that we 
see today never left the streets in many ethnic areas.
    In the past 10 years of the reform process, human rights violations 
against ethnic minorities in my country have increased. During the 
peace process, conflict has increased.
    Since the reforms began 10 years ago, hundreds of thousands of 
people from ethnic minorities have had to flee conflict and human 
rights violations. Many are still living in squalid camps without 
proper shelter, food, medical care and education for their children.
    They didn't see any gains in the past 10 years.
    One protester in Kachin state told me: ``It's great to see the 
world is finally paying attention to Burma again and starting to 
understand how ruthless the Burmese army is, but I hope they will still 
stand with us and not ignore the suffering of our ethnic people even 
after Aung San Suu Kyi is released.''
    The military saw sanctions relaxed, offers of military engagement 
and training and international companies working with their military 
companies, even as they carried on with the same human rights 
violations against ethnic minorities.
    This created a sense of impunity for the military. They think they 
can get away with it. So they commit more crimes.
    They even thought they could get away with genocide of the 
Rohingya, and so far they have.
    A U.N. Fact-Finding Mission found that what took place against the 
Rohingya in 2017 was genocide and crimes against humanity.
    In 2019 Min Aung Hlaing, the head of the military, was sanctioned 
by the United States. He was designated for his role in atrocities. But 
he and the other generals sanctioned had no assets in the United States 
to freeze. No further action took place following the designation. So 
all that was left was a visa ban.
    The only United States sanction the Burmese military faced for 
committing genocide was that some of their soldiers were banned from 
taking holidays in the United States.
    Having just been allowed to get away with genocide, of course Min 
Aung Hlaing thinks you will also let him get away with the military 
coup. For the sake of my country, you must prove him wrong.
    If you look at the signs of the protesters on the streets, they 
don't want to go back to how things were before the coup.
    It was an unacceptable situation with too many people, especially 
ethnic and religious minorities, not only left behind but suffering 
increased repression and human rights violations.
    People want the coup reversed and the democratically elected 
government reinstated, but they do not want to go back to the military 
drafted 2008 Constitution.
    They don't want to go back to a situation where the military 
commits genocide and is defended by the Government.
    In the United States you would not accept a situation where your 
Chair of the Joint Chiefs of Staff chose three members of the cabinet 
and controlled every police force in the country.
    You would not accept him setting his own budget.
    You would not accept him choosing 25 percent of the members of 
congress.
    You would not accept it, and nor do we.
    Protesters risking their lives on the streets are calling for a 
federal democracy, like you have.
    Min Aung Hlaing has been proved wrong in his calculations that he 
could stop protests and resistance by the people of Burma.
    But so far he has not been proved wrong in his calculations that 
the response of the international community would be weak.
    Statements are important and welcome, but they are ignored 
repeatedly by the generals. They expect it. They are military men. They 
are not diplomats. They respect strength and action.
    We are realistic. We know that international action alone will not 
free our country. We will win our own freedom but international action 
has a critical role to play.
    When we call for sanctions, we are not just making a plea for help.
    We are calling on you to stop helping the military which oppresses 
us.
    Almost every weapon and every item of military equipment and 
technology the Burmese military have comes from other countries or is 
based on technology from other countries.
    Every military company has been created using finance, technology 
and equipment from overseas.
    The military in my country is not isolationist. It has been built 
and financed with international support.
    The United States has always been at the forefront of international 
action to support human rights and democracy in my country. We are 
grateful for that.
    But today American companies are working for military owned 
companies. American companies help the military promote their company 
products which help pay for their guns and their bullets. American 
companies are channeling millions of dollars to the military.
    I want to thank the United States for being the first to act after 
the coup, freezing Government reserves and sanctioning three military 
companies.
    There is much more the United States can and must do.
    The military are not the legal government of my country and the 
American Government must not accept them as such. They have no 
legitimacy and must not be recognized by the United States. We have 
elected MPs and they have formed a Committee Representing Pyidaungsu 
Hluttaw. They have the elected mandate from the people. The military do 
not.
    You must target the economic interests of the military. Sanctions 
on military companies, including their conglomerates, Myanmar Economic 
Corporation and Union of Myanmar Economic Holdings.
    These sanctions must include services. Banking and finance. 
Consultancy and legal services. Insurance and reinsurance.
    Now that the military control the Government, revenues to them from 
oil and gas need to be stopped. This should happen not by Chevron, 
Total and others pulling out, or shutting down the flow of oil and gas. 
That would leave many people in Burma and Thailand literally in the 
dark. Instead, international companies should be asked to stop all 
revenue and royalty payments. If they refuse, sanctions and anti-money 
laundering laws should be used to stop this revenue flow.
    Timber and gems will also be big revenue earners for the military. 
The United States should sanction these sectors, barring imports 
whether they come directly or via third party countries.
    At the same time, we don't want to see more general trade sanctions 
like removing trade privileges or a complete ban on imports from Burma. 
This will hurt ordinary people too much. We need smart and targeted 
economic sanctions.
    The United States has an arms embargo, along with 40 other 
countries. That means 151 countries do not have an arms embargo or 
policies to prevent the sale of equipment to the military, or equipment 
and technology which can be used for repression.
    You are the most influential country in the world. Please use that 
influence to work with allies like the UK to build a global coalition 
of countries imposing arms embargoes. In this way, regardless of 
China's veto at the U.N. Security Council, you can make progress 
towards a global arms embargo.
    There are like-minded countries such as the UK, Canada and members 
of the European Union. Please work with them to coordinate targeted 
sanctions and where necessary, show leadership and drag them along 
behind you.
    You have strong relationships with Japan and Singapore, countries 
which play a key role in the economic and political fortunes of the 
military. Please reach out to them.
    Financial assistance to civil society organizations documenting 
human rights violations and working for democracy will be even more 
important now.
    Victims of human rights violations by the Burmese military must 
also be a priority for humanitarian aid. Internally displaced people, 
the vast majority from ethnic minorities, have never received enough 
aid for shelter, food, medicines and education. They should be first in 
line for American aid. Refugees in camps in Thailand and Bangladesh are 
also living in unacceptable conditions without the support they need. 
Conditions which also make them especially vulnerable to COVID-19.
    There is no shortage of measures which the United States can take, 
diplomatic, economic, humanitarian and legal. All that is needed is the 
political will.
    By themselves some of these measures may seem small, but combined 
they will have an impact.
    Your leadership in taking these measures will be encouraging others 
to do the same, multiplying your impact.
    Archbishop Desmond Tutu has long supported our campaign and he once 
told us, everything that can be done must be done. If you haven't done 
everything you can, you haven't done enough.
    On the streets in my country, young people come back onto the 
streets day after day despite knowing they could be shot. They put 
stickers on their phones with their blood type in case they are 
injured, and they put names of next of kin in case they are killed. 
They are doing everything they can.
    We are asking you to do everything you can to help people in Burma. 
Thank you.

    The Chairman. Thank you. I understand Mr. Law is trying to 
connect with us. Mr. Law, are you with us yet?
    [No response.]
    The Chairman. Well, I hope it is not the Chinese Government 
seeking to interfere with Mr. Law's testimony from Hong Kong. 
Well, let me turn to a round of questions. If we are able to 
connect, we will certainly intercede his testimony at that 
time. Let me turn to the ranking member for any questions.
    Senator Risch. Well, thank you. Ms. Hnin, your testimony 
was very good, particularly as far as details are concerned, 
and that is, what we always hunger for is details on top of the 
generalities that we know. But tell me this. The things that we 
have done, what is your--what is your idea of how this is going 
to end? I mean, the military takeover by the people who were in 
charge have shown that--over many years that they--that they 
can survive through a lot of pressure. How do you see this 
thing ending? What is your--what is your thought on that?
    Ms. Pwint Thon. Thank you very much, Senator. It is a very 
good question. So the military is not immune to pressure. The 
military is not immune to the, you know, international 
pressure. So, so far, it has been over a month since the coup 
started, and every day we have seen the situation getting worse 
and worse. It is not just cracking down on peaceful protesters 
anymore. It is pure killing in some parts of the country. And 
what we have seen from the international community is mostly 
statements of condemnation, and what we want them to do--and 
especially United States is very powerful, and you can use with 
your allies to, like I stated before, sanctions on military 
companies. They care about their pocket. They care about 
pressure. Of course these will not work straight away, but this 
will send a very strong message to the military that they need 
to respect human rights, and they need to stop violating human 
rights on the ground.
    Senator Risch. Well, thank you. I appreciate those 
observations. Thank you, Mr. Chairman.
    The Chairman. Thank you. I understand that Senator Cardin 
is with us virtually. Senator Cardin?
    Mr. Law. Testing. Testing.
    The Chairman. Is that Mr. Law?
    Mr. Law. Yes. Yes. I am so sorry, Chairman. I do not know 
why--the problem maybe is from my end, technical problems. 
Sorry.
    The Chairman. Okay. Well, we will recognize you now. Your 
full statement will be in the record, and if you can summarize 
your remarks. I read your statement. It is excellent. Go ahead.

STATEMENT OF NATHAN LAW, PRO-DEMOCRACY ACTIVIST AND FORMER HONG 
                KONG LEGISLATIVE COUNCIL MEMBER

    Mr. Law. Great. Thank you so much, Chairman Menendez, 
Ranking Member Risch, and the other distinguished members of 
the committee. It is really my honor to be able to testify in 
front of the Senate Foreign Relations Committee.
    The state of democracy around the world is grim. The 2020 
Varieties of Democracy Report found that 2020 was the first 
year since 2001 that there are more autocratic institutions 
than democratic ones in the world. The latest Freedom in the 
World 2021 Report, produced by Freedom House, also recognized 
this worsening democracy decline. We all are in the 15th 
consecutive year of decline in the global freedom.
    What Hong Kong people have suffered from in the past few 
years are clear examples of it. 2018, the year that Hong Kong 
people uprose. The scenes of millions of people marching down 
the streets captured the eyeballs of every corner of the world. 
We chanted for the promises made to us: democracy, autonomy, 
and freedom. Congressmen in the U.S. vowed their support to the 
movement and passed several bills, including the historic Hong 
Kong Human Rights and Democracy Act. We were all grateful for 
the warm encouragement from around the world.
    Yet starting from 2020, we have witnessed repeated 
crackdowns from the Chinese Communist Party. Assemblies have 
been banned, police brutality has emerged with impunity, and 
Beijing has circumvented all our local legislation and 
consultation process to impose the notorious National Security 
Law. Under the law, the Government can prosecute anyone who 
chants a protest slogan, display a Liberate Hong Kong flag, or 
even participate in a primary. The National Security Law is a 
convenient legal tool to silence the pro-democracy camp and 
strip away our basic rights.
    Last week was particularly devastating. The Government has 
thrown 47 prominent activists in jail because they planned to 
exercise their constitutional rights to run for office and veto 
the Government's bills. Beijing has also announced an electoral 
reform in Hong Kong that turns the city's Legislative Council 
into a National People's Congress rubber stamp chamber. With 
the democratic candidates likely barred, Beijing's appointees 
will occupy more than half of the seats without an open 
election. The election in Hong Kong has become selection.
    The erosion of freedoms in Hong Kong reflects the world 
Beijing wants to craft. Beijing is expanding its autocratic 
influence and denounces democratic values on a global scale. It 
tacitly stands behind the military junta in Myanmar by opposing 
actions from the U.N. Human Rights Council and justifying the 
coup as a major cabinet reshuffle. Hereby, I want to vow my 
support to the protestors in Myanmar because they have been 
through the toughest and bloodiest week in their anti-coup 
protest where dozens of citizens were killed by the soldiers' 
firearms. People died under the hands of tyranny. The 
casualties and disastrous consequences incurred by dictators 
are no less than climate emergencies or public health crises. 
Yet the international community seems very reluctant to tackle 
it with coordinated actions.
    This latency has to be changed. We have to rise and defend 
global democracy. The fight starts with formulating global 
goals, visions, agendas, and actions. It can only be 
accomplished by democratic countries working together to avoid 
being divided and conquered by China. Here is the concrete 
direction that can fundamentally change the trend of democracy 
decline.
    In the upcoming Democracy Summit, important democracies, 
including the G7, European countries, and the other 
democracies, should together with a preliminary formulation of 
an alliance for safeguarding democracy worldwide. The goal is 
straightforward. In the next 5 years, as long as we strive for 
a one-percent improvement annually in the Global Liberal 
Democracy Index, measured by the renowned Varieties of 
Democracy Project, we can reverse the declining state of 
democracy worldwide by 2026, and rise back to the level around 
2012, the highest Democracy Index human societies have ever 
achieved.
    It is a measurable and essential goal if we are determined 
enough to fight the rise of authoritarianism. Reversing the 
trend of global democracy decline is the mission of our era. 
Combatting the rise of authoritarianism led by China and 
supporting Hong Kong's democratic movement is an important step 
to this Nation. Hong Kong people will never give up, and we 
will fight for democracy. As we say, [Speaking Cantonese 
language].
    Thank you so much. I look forward to your questions.
    [The prepared statement of Mr. Law follows:]

                     Prepared Statement of Mr. Law

    Thank you Chairman Senator Menendez, Ranking Member Senator Risch, 
and the other members of the committee attending. It's my honor to be 
able to testify in front of the Senate foreign relations committee.
    The state of democracy around the world is grim. The 2020 Varieties 
of Democracy report found that 2020 was the first year since 2001 that 
there are more autocratic institutions than democratic ones in the 
world. The latest ``Freedom in the world 2021'' report produced by 
Freedom house also recognizes this worsening democracy decline, and 
describes the situation as:

        ``Increasing autocracy threatens the rights of people in every 
        corner of the world. This is a global emergency that awaits a 
        coordinated response from the free world. Nearly 75 percent of 
        the world's population lived in a country that faced 
        deterioration last year.''

    We are all in the 15th consecutive year of decline in global 
freedom. What Hong Kong people have suffered from in the past few years 
are clear examples of it.
    2019, the year that Hong Kong people uprose. The scenes of millions 
of people marching down the streets captured the eyeballs of every 
corner of the world. We chanted for the promises made to us--democracy, 
freedom and autonomy. Congressmen in the U.S. vowed their support to 
the movement and several bills, including the historic ``Hong Kong 
human rights and democracy Act'', were passed. We were all grateful for 
the warm encouragement from around the world.
    Yet, starting from 2020, we have witnessed repeated crackdowns from 
the Chinese Communist Party. Assemblies have been banned, police 
brutality has emerged with impunity, and Beijing has circumvented all 
our local legislation and consultation process to impose the notorious 
National Security Law. Under the law, the Government can prosecute 
anyone who chants a protest slogan, displays a ``liberate Hong Kong'' 
flag, or even participates in a primary in the pro-democracy camp. The 
National Security Law is a convenient legal tool to silent the pro-
democracy camp and strip away our basic rights.
    The last week was particularly devastating. The Government has 
thrown 47 prominent democratic figures in jail because they planned to 
exercise their constitutional rights to run for office and veto the 
Government's bills. Beijing has also announced an electoral reform in 
Hong Kong that turns the city's legislative council into a National 
People's congress style rubber stamp chamber. With the Democratic 
candidates likely barred, Beijing's appointees will occupy more than 
half of the seats without an open election. The election in Hong Kong 
has become SELECTION.
    The erosion of freedoms in Hong Kong reflects the world Beijing 
wants to craft. Beijing is expanding its autocratic influence and 
denounces democratic values on a global scale. It tacitly stands behind 
the military junta in Myanmar by opposing actions from the U.N. human 
rights council and justifying the coup as ``a major cabinet 
reshuffle.'' Hereby I want to vow my support to the protestors in 
Myanmar because they have just been through the toughest and bloodiest 
week in their anti-coup protest, where dozens of citizens were killed 
by the soldiers' firearms. I also stand in solidarity with the 
#Milkteaalliance members who are fighting for justice and democracy in 
their respective countries.
    People died under the hands of tyrannies. The casualties and 
disastrous consequences incurred by dictators are no less than climate 
emergencies or public health crises; yet, the international community 
seems very reluctant to tackle it with coordinated actions.
    This latency has to be changed. We have to rise and defend global 
democracy. The fight starts with formulating global goals, visions, 
agendas and actions. It can only be accomplished by democratic 
countries working together, to avoid being ``divided and conquered'' by 
China.
    Here is the concrete direction that can fundamentally change the 
trend of democracy decline: In the upcoming April's Democracy Summit, 
important democracies including the G7s, European countries and the 
other democracies should come up with a preliminary formulation of an 
alliance for safeguarding democracy worldwide.
    The goal is straightforward: in the next 5 years, as long as we 
strive for a one percent improvement annually in the global liberal 
democracy index, measured by the renowned Varieties of Democracy (V-
Dem) project, we can reverse the declining state of democracy worldwide 
by 2026, and rise back to the level around 2012, the highest democracy 
index human societies have ever achieved.
    It's a measurable and essential goal if we are determined to fight 
the rise of authoritarianism led by dictators like President Xi and 
safeguard the most needed values that guide humanity to dignity and 
prosperity.
    Reversing the trend of global democracy decline is the mission of 
our era.
    Thank you so much. I look forward to your questions.
                                 ______
                                 
Attachment--BRIEF on the Latest Political Development in Hong Kong, 
        March 2021, From Nathan Law
Takeaways

  <bullet> Beijing loyalists will secure an overwhelming majority in 
        the future legislature and the selection ``election'' for city 
        leaders. The proposed overhaul will kill LegCo's existing check 
        and balance function as democrats will lose their veto power. 
        Implications for the regulatory and investment environment can 
        be far-reaching.

  <bullet> Most, if not all, democrats will be barred from the election 
        in practice since future candidates are subject to political 
        screening. Even if they survive the new nomination and vetting 
        requirements, they can still be disqualified, unseated or even 
        charged under the national security law.

  <bullet> Beijing leaders have already hinted that the new political 
        reform is paving the way for further national security 
        legislation, aka the controversial Article 23. The impact on 
        the city's future policies, especially those related to 
        regulatory environments, can be far-reaching.
                    1. beijing's political overhaul
    Beijing is making a new effort to ensure ``patriots'' to take 
charge of all governance levels. To achieve this, the National People's 
Congress, China's rubber-stamp parliament, plans to pass a new 
political reform that is expected to be announced on March 11 this 
month. According to multiple local media citing unnamed sources, 
several reform options have been put on the table, including the 
following:

    Changes in Selection Committee include:

  <bullet> Expanding the size of the largely pro-Beijing committee that 
        selects Hong Kong's leader from 1200 to 1500 seats.

  <bullet> Canceling the current 117 seats held by district councilors 
        in the committee. The seats will go to Beijing-handpicked CPPCC 
        members.

    Changes in Legislative Council (LegCo) include:

  <bullet> Expanding the seats in the Legislature from 70 to 90 seats.

  <bullet> Cutting the number of directly elected seats: There are two 
        reform options. The more radical one has reportedly gained more 
        support, i.e. reducing the number of directly elected seats 
        from 35 to 20 seats;

  <bullet> Introducing an additional 40 seats that will be allocated to 
        Beijing loyalists from the selection committee;

  <bullet> Imposing a new requirement that future LegCo election 
        runners have to be screened twice, one by the selection 
        committee's nomination and another by a new ``vetting 
        committee''. The vetting committee will screen future 
        candidates' qualifications, which include Beijing's new demand 
        of ``loyalty.''

  <bullet> Replacing the current proportional representation system of 
        allocating the directly elected seats with a majoritarian one.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        


    Similar to the promulgation of the national security law 
legislation, local Beijing loyalists are mostly out of the loop 
throughout the decision-making process of the new electoral reform. As 
a staunch pro-government lawmaker, Regina Ip, suggested, Beijing has 
already changed to whom it would listen and only consulted the top most 
trusted advisers. Even members of more established pro-Beijing local 
parties were excluded from the symposium in Shenzhen on the electoral 
changes in previous weeks. At the same time, a new political party has 
been established by mainland Chinese-born individuals. On March 9, they 
emphasized that ``patriotism is their true colour'' and vowed to gain 
seats and influence in the legislature and administration. In other 
words, current pro-government parties are losing Beijing's trust and 
would be further marginalized in the future. Chinese-born lawmakers or 
mainland ex-pats will expectedly play a more vital role in city 
governance.
    Unlike the previous three rounds of political reforms in Hong Kong, 
this reform is directly imposed by Beijing, without public consultation 
and legislative approval. Rita Fan, former delegate to the National 
People's Congress Standing Committee, even commented that pro-democracy 
figures do not deserve to be consulted.

Implications

  <bullet> The Beijing-dominated selection committee becomes the new 
        influential sector, with democratic representation falling in 
        both the LegCo and the selection committee. The share of 
        directly elected seats drops to a record low, even worse than 
        the figure in Macao (i.e. Directly elected seats only account 
        for 22% in Hong Kong, compared to 42% in Macao). In their 
        place, Beijing-trusted candidates can dominate a sizable number 
        of seats in the LegCo.

  <bullet> Future election runners are subject to a two-step political 
        screening before voters can elect them. In practice, most of 
        the opposition leaders will likely be barred from elections. 
        Not to mention that candidates and election winners have to 
        survive pre-and post-election disqualification mechanisms under 
        the current arrangements.

  <bullet> Beijing loyalists are expected to secure an overwhelming 2/3 
        majority in the LegCo, giving them enough authority to change 
        the city's election system and pass further security-related 
        laws. When democrats lose their veto power against future 
        draconian legislations, the political landscape alteration may 
        affect the entire investment and regulatory environments.

  <bullet> Wolf-warrior-like politicians will become more active in 
        local governance after the power reshuffles: Under the loyalty-
        vetting mechanism of the proposed electoral framework, not only 
        would democrats likely be screened out but so would moderate 
        Beijing supporters who occasionally criticize the Government's 
        policies. New pro-Beijing parties or wolf-warrior-like 
        politicians will give more influential voices in the future 
        policy-making process.
             2. the hearing on the 47 pro-democracy figures
    On February 28, 2021, 47 pro-democracy activists were charged with 
a ``conspiracy to commit subversion'' for their participation in the 
legislative primaries last year. As the first and most expansive use of 
the new security law, the marathon hearing has the following 
implications:

  <bullet> Even voting, the most peaceful way of political expression, 
        can be considered a breach of the national security law: The 
        case is a disregard of democracy since over 610,000 Hongkongers 
        took part in the city's first-ever informal primaries. Most of 
        the 50 democrats had obtained tens of thousands of votes. The 
        case is a perfect example of Beijing's tightening red line in 
        the territory--no matter how peaceful citizens expressed their 
        political beliefs, Beijing cannot tolerate any dissenting 
        voices.

  <bullet> Prosecutors can challenge the court's bail decisions: 15 
        defendants were kept in custody even after initially being 
        granted bail since government prosecutors had immediately 
        appealed against the court's bail decision. The same trick is 
        expected to be used on future arrestees.

  <bullet> Inhuman trial processing: The processing is criticized as 
        chaotic and judicially unfair. Throughout the 4-day hearings, 
        at least eight defendants were taken to the hospital by 
        ambulance. The 1st-day hearing lasted for 19 hours in total, 
        which the defendants' family described as ``torturing.'' 
        Several defendants complained about a lack of access to their 
        lawyers. For 3 days, they had no access to showers or even 
        proper rests.

  <bullet> Special treatments in prison: All remands are subject to 
        solitary confinement, including meals and exercise. At least 
        four defendants were barred from contact with their families.

  <bullet> In addition to election runners, even facilitators have 
        become Beijing's new targets: On the eve of the hearing, the 
        mediating platform, Power for Democracy, was forced to cease 
        operation and disband after three of the organizers, Andrew 
        Chiu Ka-yin, Au Nok-hin and John Clancey, were prosecuted. The 
        platform has facilitated electoral coordination among pro-
        democratic parties for nearly 20 years since 2002. An electoral 
        coordination platform as such is now facing unprecedented 
        pressure.

    The Chairman. Thank you. Let me turn to--I understand we 
have a list of names here that may be online. Senator Booker?
    [No response.]
    The Chairman. Senator Markey?
    [No response.]
    The Chairman. Okay. Senator Coons.
    Senator Coons. Thank you, Mr. Chairman, and thank you to 
the folks who have testified for your courage, for your 
determination, for your passion to fight for democracy. It is 
your sacrifice that encourages those of us here who are looking 
at how best to revive, and sustain, and advance our democracy 
in the United States.
    Peter, thank you for being with us in person. It is 
wonderful to see you here safely and in Washington. As a 
prominent civil society leader in South Sudan, as someone who 
has endured imprisonment, I would be interested in hearing from 
you what you think this committee can best do to support the 
cultivation of democracy and peace in South Sudan, and what you 
can share with us about democratic trends more broadly across 
the continent, and what you see as the greatest threats to 
civil society in South Sudan and across the continent.
    Dr. Ajak. Thank you. Thank you very much, Senator Coons, 
for your questions, and thank you for your support. One of the 
things that I remember very well from the prison was being 
briefed by the letter that you and Senator Booker wrote in 
demanding for my release. And it was--I was in solitary 
confinement at the time and was told that senators are speaking 
on your behalf and you have to find a way to keep them quiet, 
which was a crazy request given that I was in solitary 
confinement.
    People of South Sudan are yearning for democracy. This is 
the reason why we sacrificed for more than two decades, 
fighting a civil war and fighting for our own independent 
state. But as you know, we have never voted. I am 37 years old, 
and I have never voted in my entire life, and that is because 
our president keep on postponing elections. Every time 
elections come up, he keeps postponing them. So one thing that 
this committee can do is to stress the importance of the 
elections that are scheduled for next year to take place on 
time and not be delayed again. This would require, of course, 
getting the U.N., especially the U.N. Mission in South Sudan, 
on board to review its mandate so that the elections are part 
of its mandate. It requires possibly looking at appointing a 
high-level U.N. envoy that shepherds the country toward the 
conduct of these elections.
    It also requires supporting the civil society, doing 
exactly as what you did before, speaking out on behalf of 
activists. As I speak with you, there are 1,000 people detained 
in secret national security facilities across the country. So 
your voices matter, and it sends a message to Kiir that he is 
being watched and that he will be held accountable. Also urging 
the African Union to set up the Hybrid Court so that there is 
accountability for atrocities that have been committed in the 
country.
    But going beyond, the region, the whole Horn of Africa is 
in crisis. What is happening in Tigray is shocking, and it 
requires U.S. to speak out forcefully. Also recently, as we 
have seen in Uganda, elections are being held, but they are 
sham elections because these dictators are the ones monitoring 
the elections, and, at the same time, the ones counting the 
votes. So in the end, they count it for themselves. So U.S. 
leadership in the region is critical because, as mentioned in 
the previous panel, U.S. have been absent in the last few years 
and it has allowed these authoritarian countries to take over, 
especially China. It requires really countering China.
    Senator Coons. Thank you very much, Peter, and it is, I 
think, our intention in this committee and elsewhere to re-
engage and re-engage actively in the Horn of Africa as well as 
throughout the rest of the world. If I might ask one more 
question, Mr. Chairman, just of Wai Hnin and Nathan. Thank you 
both for your courage. And I understand that, despite social 
media restrictions, internet blackouts, a critical means of 
organizing in the face of a coup and a crackdown has been 
access to social media. If you could each speak to the 
importance of a free and open internet and social media to 
democracy and to activism in Hong Kong and in Burma, I would 
welcome that. Here in the United States, we have a very 
polarized social media landscape that has led to some 
disinformation campaigns, and in our Congress, we will be 
debating how best to balance protecting free speech online and 
regulations to prevent disinformation. So if you could in turn, 
Wai Hnin and Nathan, just briefly speak to that question. Thank 
you.
    Ms. Pwint Thon. For social media, it is very good for us 
because compared to 2007 and in the past uprising, we have seen 
the live footages of people on the street protesting. And now 
they are shutting down internet from 1:00 a.m. until 6:30 a.m. 
now, so we are worried what will happen because the military is 
doing nightly raids and people cannot report it on social media 
about the human rights violations happening on the ground.
    So we are very grateful that we have live information 
coming up from the country, and also it give more evidence to 
the international community that they need to act now, but of 
course the military is also using their social media platform 
to spread false information as well. But on a greater level, we 
appreciate having the internet, and we need that nightly 
internet cut to be stopped so that, you know, human rights 
violations can stop happening during the night as well. Thank 
you.
    Mr. Law. Thank you for the question, Senator. First of all, 
Hong Kong people can still have access to Facebook and Twitter, 
these social media platform. But when they speak about the 
situation of Hong Kong or urging the international community to 
hold China accountable, they could be seen as breaching the 
National Security Law. So it really adds up and spread wide 
terror for them, making them afraid of expressing a genuine 
opinion online. Furthermore, China has been deploying its 
misinformation overseas, and also a lot of information warfare 
are conducting. So I have always been urging countries working 
with social media companies to really monitor and curb this 
misinformation campaign led by state actors, and to really 
safeguard democracy by stopping this infiltration to our system 
and uphold the values of democratic society.
    The Chairman. Thank you. Thank you very much. A vote is now 
under way, so I will just ask if there is any member who is on 
virtually who has not had an opportunity, if you would identify 
yourself. Let me start off--I understand that maybe Senator 
Hagerty is with us?
    [No response.]
    The Chairman. Okay. I understand maybe Senator Markey is 
with us?
    [No response.]
    The Chairman. Senator Markey? Senator Hagerty?
    [No response.]
    The Chairman. Is anyone out there?
    Senator Van Hollen. Mr. Chairman, this is Senator Van 
Hollen. How are you? I do not know if the others are here or 
not.
    The Chairman. Having not heard from either one of them, I 
will turn to you, Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. I want to 
thank all three of our witnesses today for their powerful 
testimony and their courageous actions in support of freedom 
and democracy.
    Mr. Law, I have a question for you because I joined with 
Senator Toomey, and last year we passed the Hong Kong 
Accountability Act, which provided additional authorities for 
the President of the United States to sanction officials 
responsible for the crackdown and taking away freedom and 
democracy in Hong Kong. The prior Administration used that for 
some targeted measures against individuals. I was pleased to 
see the Biden administration issue some sanctions against those 
in Russia who have been very instrumental in the crackdown on 
Navalny. And we are urging the Biden administration now to take 
similar steps with respect to the further crackdown on Hong 
Kong. As you said, 47 democracy activists, you know, have been 
detained and threatened.
    The sanctions authority allows for sanctions not only 
against individuals, but also banks that bank those 
individuals, the banks that those individuals rely on. Do you 
think it would be productive if the Biden administration both 
imposed further sanctions on individuals responsible for the 
crackdown, but also use that authority to sanction some of the 
banks that they do business with?
    Mr. Law. Thank you, Senator, for your questions. The answer 
is a resounding yes. It is an important tool by using sanctions 
to have deterrence effect on the individuals who are 
responsible for human rights violation, and, in fact, it is one 
of the very few tools that can really impose hardship on an 
individual level. So I agree that the list of sanctions on 
Chinese and Hong Kong officials should be expanded. And, on the 
other hand, sanctions on corporation which is colluding with 
the Chinese Communist Party on human rights violations is also 
important because sometimes these business, they are using the 
name of unknown political actors, but actually they are tacitly 
helping the Chinese Communist Party to promote its agenda, and 
while really taking advantage of our open and democratic values 
and system, but getting benefits from autocracies.
    I think these kind of behaviors should be curbed, and the 
business sector should be warned very carefully that they 
should not be cooperating with the Chinese Communist Party and 
other dictators. Otherwise, they will face consequences. I 
think sanctioning is really such a clear message, and it is 
much needed.
    Senator Van Hollen. Thank you. Right that is the idea is 
that those financial institutions that are enabling those 
individuals also recognize that they could be penalized through 
the sanctions. Let me just thank all of you. As the chairman 
said, a vote is on, and I see Senator Markey is here, but thank 
all of you for your testimony.
    The Chairman. Thank you, Senator Van Hollen. Is Senator 
Markey with us?
    Senator Markey. Thank you. Can you hear me, Mr. Chairman?
    The Chairman. I can hear you loud and clear. You are 
recognized for 5 minutes.
    Senator Markey. Beautiful. Thank you so much. Ms. Pwint 
Thon, thank you for being here with us today, and I am 
interested to hear how you think the United States can better 
support the Burmese people in their push for democracy 
following the military coup.
    Ms. Pwint Thon. Thank you so much, Senator Markey, and 
please take let me take this opportunity to thank you. I 
understand that you sponsored the--Burma's Political Prisoner 
Act as well. So this is the moment that, you know, we need that 
more than ever now because there are growing numbers of 
political prisoners in the country, and we need to continue. We 
need the U.S. to continue its support and aid from the NED and 
the Government to make a difference because we need more 
organizations on the ground to document human rights violations 
in the country. So that is one aspect of it.
    And also, the other thing is, like I said, sanctioning 
military companies and targeted sanctions is very important. We 
are asking for U.S. to establish a global arms embargo as well, 
global correlations of countries to impose an embargo. So when 
you have that--the China's vetoes at the U.N. Security Council, 
you can make progress towards that even with China. So that is 
one action the U.S. can take. And you have so many tools that 
you can use to help people in Burma, and please use those to 
help us.
    Senator Markey. We will do. We are with you. We are going 
to have your back throughout this entire ordeal. We are going 
to come out on the other side of it, but we need the United 
States to exercise its historic moral, political, economic 
leadership, and we are going to do that. Thank you for your 
great leadership. And, Mr. Law, we have seen beautiful displays 
of solidarity between pro-democracy Hong-Kongers and Burmese 
protesters over the past several weeks. It seems that these 
protesters are sharing information on how to manage the brutal 
assaults by authorities. Do you see any unique opportunities 
for the United States Government or private industry to support 
these exchanges?
    Mr. Law. Thank you so much, Senator, and also for your 
continuous support for Hong Kong's democratic movement. I think 
for now, we can form virtual community on social platform. We 
can form mutual alliance that share our information and 
consolidate our support to each other's democratic circles. So 
it has been enhancing the ability of showing these protests to 
the world, and I think the democratic communities in the 
Western countries can also facilitate an exchange, increase the 
education on the threats of authoritarianism. And these 
processes is crucial because perception changes actions.
    It really takes us to raise the awareness on what is 
happening in Hong Kong and Myanmar in order for us to get 
grassroots support in the Western countries and also push 
forward to change. What we are facing is a global democracy 
decline. It is a global democracy crisis. The Chinese 
Government is tacitly backing the Myanmar group, and this is a 
situation that we have to resolve with coordinated actions. So 
I think the Western democracies really take a huge role in 
here, and we are expecting consolidated efforts and 
organizations that could step up and to defend democracy.
    Senator Markey. Thank you, and, again, thank you for your 
leadership. Thank all of you for your leadership. Thank you, 
Mr. Chairman, for giving me this opportunity. I know the roll 
call is on, but I appreciate it.
    The Chairman. Thank you, Senator Markey. There is a vote 
going on, so we will have to bring this hearing to a 
conclusion. But I do want to ask each of you in 1 minute, which 
I know is always difficult, but in 1 minute, tell me the one 
thing you would want the United States to do as it relates to 
your specific country that you think would make a difference. 
Doctor.
    Dr. Ajak. Thank you, Chairman, for that question. For me, 
the one specific thing that people of South Sudan needs is to 
exercise the right to elect their own leaders. We have never 
had that right, and we have struggled for so long. We have 
sacrificed so many people for us to get our country, and since 
doing that, we have never had a chance to vote. The elections 
are supposed to take place next year. We want the U.S. help so 
that those elections happen and we finally get to vote. Thank 
you.
    The Chairman. Mr. Law.
    Mr. Law. Well, for now, we have to see the decline of 
democracy as a global crisis with global agendas, missions, 
actions. So I think the U.S. definitely could play the role of 
consolidating their efforts around the world, forming alliance 
that aims at tackling the rights of authoritarianism, and 
clearly positioning China as the greatest threat to our 
democracy and our rule-based international system. It requires 
a lot of cooperation and strength to do it, and I believe that 
the Western democracies have to come together under the 
facilitation of the U.S. and the other allies.
    The Chairman. Thank you. Ms. Hnin.
    Ms. Pwint Thon. Thank you very much. We want to see the 
Burma--the future of Burma, what we want to see is federal 
democracy with equal rights for every individual living in the 
country, and U.S. has already been using diplomatic pressure 
and other pressure. So I would like to urge the United States 
to use other measures that you have--economic, humanitarian, 
legal, and also diplomatic--continued diplomatic pressure on 
the military to stop human rights violations and stop this 
coup, and give people freedom, and human rights, and democracy 
that we deserve. Thank you.
    The Chairman. Thank you. Well, thank all of you. You are 
vivid examples of why democracy is so important. And those 
willing to struggle for it in their respective countries, you 
give us all a sense of inspiration. We salute and recognize 
your individual sacrifices, and we thank you for sharing your 
stories with us in the Senate and with the world.
    This record will remain open until the close of business 
tomorrow.
    With the thanks of the committee to all of our witnesses, 
this hearing is adjourned.
    Dr. Ajak. Thank you.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]

                        [all]
</pre></body></html>
